headquarters, although a vocal minority disagreed. An overwhelming majority reported that their offices
had found it simpler to ask the lender to repair or withdraw the guaranty request. Most Directors indicated
that while the entire lender file was not needed to appropriately process a purchase request, additional
documents would be helpful. They also reported using different criteria for various lenders and loans.

The Loan Officers’ survey focused on the following areas related to processing purchase requests:
workload; management; the review process; individual experience; documentation; training; risk
assessment; monitoring; and communication. Responses indicated that most officers review 3 or fewer
purchase requests per week; most have 5 or more years’ experience and spend less than 25% of their time
conducting purchase reviews. Most respondents indicated that the SOP needs to be strengthened and very
few have received formal training. Most did not believe their denial recommendations are supported by
headquarters. Most reported that the major reason for using different criteria for various lenders is because
of poor performance by the particular lender. While most reported that they query for flags, they also
reported that their recommendations are not influenced by the flag. These and numerous other issues are
explained in greater detail in the report. Drafts of the two reports were provided to the Office of Capital
Access; the Office of Financial Assistance, the Office of Field Operations and the Office of General
Counsel.

We would like to express appreciation for the excellent response rate from the field. The high degree of
respondents’ participation, both from District Directors and Branch Managers, as well as loan officers,
greatly added to the meaning and content of the responses.
  Guaranty Purchase Processing:
   Directors’ Survey Responses
               and
 Loan Officers’ Survey Responses



          March 18, 2003




          Report No. 3-16




    Office of Inspector General
Inspection and Evaluation Division
U. S. Small Business Administration
                        REPORTS ON G UARANTY PURCHASE PROCESS SURVEYS
                                      TABLE OF CONTENTS


Executive Summary............................................................................................................ ii


Guaranty Purchase Process: Directors’ Survey Responses ............................................... 1
 Introduction...................................................................................................................... 1
 Methodology.................................................................................................................... 2
 Results.............................................................................................................................. 3
   I. Time/Workload ........................................................................................................ 3
   II. Management ........................................................................................................... 5
   III. Review Process ...................................................................................................... 7
   General Comments ..................................................................................................... 14
 Appendix to Directors’ Survey Responses .................................................................... 15
   Directors’ Cover Letter .............................................................................................. 16
   Director’s Guaranty Purchase Survey........................................................................ 17


Guaranty Purchase Review Process: Loan Officers’ Survey Responses ......................... 20
 Introduction.................................................................................................................... 20
 Methodology.................................................................................................................. 21
 Results............................................................................................................................ 22
   I. Time/Workload ...................................................................................................... 22
   II. Individual............................................................................................................... 25
   III. Documentation.................................................................................................... 27
   IV. Management ........................................................................................................ 31
   V. Training ................................................................................................................ 34
   VI. Review Process ................................................................................................... 37
   VII. Risk Assessment ................................................................................................ 42
   VIII. Monitoring........................................................................................................ 46
   IX. Communications ................................................................................................. 50
   General Comments ..................................................................................................... 52
      SBA Internal Issues................................................................................................. 52
      External Issues ........................................................................................................ 53
      Policy Issues............................................................................................................ 53
   Appendix to Loan Officers’ Survey Responses ......................................................... 55
      Loan Officers’ Cover Letter.................................................................................... 56
      Loan Officers’ Guaranty Purchase Survey ............................................................. 57




                                                                   i
                                  Executive Summary

This report includes responses to two surveys relating to the SBA Guaranty Purchase
process which were mailed in May, 2002. The surveys were conducted in conjunction
with the OIG “Audit of the Guaranty Purchase Process.” Recommendations regarding
the purchase process will be included in the Audit report.

The responses of SBA District Directors and Branch Managers are reported in the section
titled “Guaranty Purchase Process: Directors’ Survey Responses.” More than 88%
(N=66%) of all District Directors and Branch Managers responded to the survey.
Directors’ responses indicated that most offices receive 3 or fewer purchase requests per
week; about half of the respondents reported a small backlog. Most of the respondents
had recommended denials and a slim majority indicated those decisions were supported
by headquarters, although a vocal minority disagreed. An overwhelming majority
reported that their offices found it simpler to ask the lender to repair or withdraw the
guaranty request. Regarding the review process, most Directors reported that they do not
believe the entire lender file is needed to appropriately process a purchase request, but
that additional documents would be helpful. They also reported using different criteria
for various lenders and loans, and noted a wide range of possible reasons for this.

The responses of loan officers are reported in the section titled “Guaranty Purchase
Process: Loan Officers’ Survey Responses.” More than 77% (N=149) of all loan
officers responded to the survey. Responses indicated that most officers review 3 or
fewer purchase requests per week; most have 5 or more years’ experience and spend less
than 25% of their time conducting purchase reviews. Most respondents indicated that the
SOP needs to be strengthened and that they use additional, internal documents to inform
their review process. Most respondents did not believe their denial recommendations are
supported by headquarters and very few have received formal training. Most reported
that they consider a limited number of factors in conducting the reviews and, where they
do use different criteria for different lenders, it is due to poor performance by the
particular lender. While most reported that they query for flags, they also reported that
their recommendations are not influenced by the flag.




                                            ii
              Guaranty Purchase Process: Directors’ Survey Responses

                                       Introduction

This section presents responses to one of two surveys regarding the SBA Guaranty
Purchase process. One survey instrument was sent to District Directors and Branch
Managers and the second to Loan Officers. These respondent surveys were conducted in
conjunction with an OIG audit of the Guaranty Purchase process. The purchase process
is important because it is the final control for insuring that lenders comply with rules and
regulations that govern the guaranteed loan program. During the planning of the audit,
various issues emerged which resulted in OIG determining that a survey of SBA field
staff could provide useful information, based on their observations. Therefore, District
Directors were asked to complete a survey instrument on workload, management, and the
purchase process. The major purpose of the survey was to gain the Directors’
perceptions regarding their experience with these aspects of the purchase process. The
companion report covers the responses of loan officers to a separate questionnaire.

The results of this respondent survey are significant. In addition to the importance of the
purchase process, the exceptional response rate indicates that Directors and Branch
Managers have strong opinions about the issue of the purchase process. Respondents
also took advantage of the opportunity to include some very direct comments. The
responses are being analyzed in conjunction with other information as part of the OIG
audit, therefore any recommendations on the purchase process will be included in that
report. However, because of the importance of the purchase process, as well as the strong
response rates, OIG is issuing this separate, informational report.

All the results in this report are taken from the data submitted by the 66 District Directors
or Branch Managers who answered questions on the Directors’ survey. Results from
each question are illustrated in the following pages. The question is included in the
header of each table; most tables are illustrated by accompanying graphs. Respondents
provided a number of comments. Because of the magnitude of the response, it is
impossible to include all of them here; however, representative examples are provided.
Some comments are paraphrased for brevity; in a few instances this is done to omit
identifying information about the respondent. The analysis of each question follows the
table and graph. With very few exceptions, there was a great deal of unanimity in the
answers of this group. Most answers include a category where 50% or more agreed.
Given the significant response rate, this measure of agreement further strengthens the
validity and reliability of the results.




                                              1
                                      Methodology

Pen and paper survey forms were mailed to a total of 79 SBA employees identified as
Branch Managers or District Directors; included responses were received by June 28,
2002. The survey instrument was tested in April, 2002. The purpose of the survey was
to get the perspective of these Managers and Directors regarding the Guaranty Purchase
process. (A copy of the instrument and cover letter are found in Appendix I). The
recipients’ names were obtained from SBA records. The entire population (N=79)
received copies of the survey instrument.

A total of 70 replied, giving us an overall response rate of 88.6%. However, 4 of the
original respondents disqualified themselves because their offices did not perform
purchases. Thus, the base rate for the total number of respondents who completed some
or all of the survey is 84% (N=66). The answers from each instrument were entered into
an Access database and the tables and graphs used for analysis in the following section
were derived from that original information.

In some cases, not all respondents answered every question. Thus, the number of
responses varies across different questions. However, the actual number of respondents
to each question is always indicated in the table. At times, depending on the nature of the
question, the “no responses” are included and that number is also indicated in each
applicable table. In some cases, the percentages do not add up to exactly 100% due to
rounding.

Standard social science methodology was used in compiling the respondent list, phrasing
the questions, and reporting the responses. Additional documents were used for
contextual information in the preparation of the survey instruments. The overall response
rate is quite significant and adds an appreciable measure of reliability to the findings. We
have reported these results for information. It is important for the reader to keep in mind
that this instrument measures the perceptions of those people who chose to respond to the
survey.




                                             2
                                           Results
                                      I. Time/Workload
Questions in this first section of the Directors’ survey asked respondents for their
perception regarding their office’s workload. Most directors reported that their offices
receive and complete 3 or fewer purchase requests per week; most have 3 or 4 employees
who process purchase requests. The majority reported that they have a small backlog.

I. Time/Workload
In this section, we ask about your office’s workload.

Q. 1
On average how many purchase reviews does                            Number of Purchase Reviews Per Week
your office complete per week?
                       Number     Percentage
0–3                          48         73%
4 – 10                       18         27%
11 – 15                       0                            4 – 10 (27.27%)
16 or more                    0
          Total              66        100%

                                                                                                  0 – 3 (72.73%)




The Directors reported that most of their offices (N=48, 73%) complete 3 or fewer
purchase requests per week. A few (N=18, 27%) complete 4 to 10. No directors reported
that their offices completed more than 10 purchase requests per week.



Q. 2
On average how many purchase requests does                        Number of Purchase Requests per Week

your office receive per week?
                        Number   Percentage
0–3                           45        70%
4 – 10                        18        28%
                                                                11 – 15 (1.56%)
11 – 15                        1         2%
16 or more                     0                        4 – 10 (28.13%)

          Total               64       100%

                                                                                                0 – 3 (70.31%)




The Directors reported that most of their offices (N=45, 70%) receive 3 or fewer
purchase requests per week. More than ¼ (N=18, 28%) reported receiving 4 to 10
purchase requests per week. Only one director (2%) reported receiving 11 or more
purchase request per week.



                                               3
Q. 3                                                                Number of personnel who conduct purcha
How many personnel currently conduct
purchase reviews? (Write the number.)
                    Number        Percentage
                                                              No response (3.03%)
0 -2                       22           33%
3–4                        26           39%                 5 – 8 (24.24%)                                2 or less (33.33%)
5–8                        16           24%
No response                 2            3%
        Total              66           99%
                                                                   3 – 4 (39.39%)




Most offices (N=26, 39%) reported 3-4 employees conduct purchase reviews. Less than
¼, (N=16, 24%), reported that 5 or more employees conduct purchase reviews. Several
commented that they had part-time employees conducting the reviews.



Q. 4
                                                                    Does office have a purchase backlog
Does your office have a purchase backlog?
                       Number       Percentage
Yes                         33             50%
No                          30             45%             No response (4.55%)
No response                  3              5%
        Total               66            100%
                                                                                                     Yes (50.00%)
                                                         No (45.45%)




One-half, (N=33, 50%) of the director respondents reported they have a backlog. Thirty
(45%) of the respondents said they have no backlog; the remainder (N=3, 5%) did not
reply to the question.



Q. 4a
If yes to question 4, what is your purchase                        Purchase Backlog
backlog?                                                     51 – 100
                        Number         Percentage               6%
0 – 25                         24            73%        26 – 50                                               0 – 25
26 – 50                         7            21%         21%
                                                                                                              26 – 50
51 – 100                        2             6%
                                                                                   0 – 25                     51 – 100
          Total                33           100%
                                                                                    73%



Of the 33 who reported having a backlog, most directors (N=24, 73%) reported a backlog
of 25 or fewer purchase requests. Only a small minority (N=2, 6%) reported having a
backlog of more than 50 purchase requests.


                                                    4
                                     II. Management
Questions in the second major section addressed management issues specific to the
guaranty purchase process. As the following information details, most offices have made
at least a few denial recommendations to headquarters. A majority of the respondents
reported that their decisions are supported by headquarters, but some strong comments
are included by those whose experiences have been different. A significant majority of
Directors reported it was simpler to have the lender repair or withdraw the purchase
request than it is to recommend a denial.

II. Management
Given all the changes that have occurred in recent years, this section addresses your
perceptions regarding whether headquarters supports yo ur office’s guaranty purchase
decisions.
                                                                         Has Your Office Made a
Q. 5                                                                    Recommendation to Deny
Has your office ever made a recommendation to                                        No
                                                                                  response
deny a guaranty?                                                           No        3%
                      Number       Percentage                             27%
Yes                          46          70%
No                           18          27%                                                     Yes
No response                   2           3%                                                     70%
         Total               66         100%

A clear majority (N=46, 70%) of the respondents stated that the ir offices have made a
recommendation to deny a guaranty. Just over ¼ (N=18, 27%) reported that their offices
have not made such a recommendation.


Q. 6
Over the past 3 years, how many denials have
                                                              Number of Denials sent to DC HQ
you sent to D.C. Headquarters?
                        Number      Percentage
1                           11             38%         12 denials         1
2                            9             31%
3                            5             17%          7 denials         1
4                            1            3.5%
                                                        5 denials         1
5                            1            3.5%
7                            1            3.5%
                                                        4 denials         1
12                           1            3.5%
         Total              29            100%          3 denials                        5


                                                        2 denials                                      9

                                                         1 denial                                               11


                                                                    0         2     4        6    8        10    12


According to the director respondents (N=29), most offices (N=11, 38%) have sent in
only 1 denial to D.C. Headquarters within the last 3 years. Nine offices (31%) reported
having sent 2 denials; three offices (17%) reported having sent in 5 denials. Four other
offices reported having sent in 4, 5, 7, and 12 denials each.

                                                 5
Q. 7
In your experience, do you find that                                     HQ Supports Denial
headquarters supports your recommendations                               Recommendations
to deny a guaranty?
                       Number        Percentage                    18%
Often                        21            52%                                                                Often
Occasionally                 12            30%                                                                Occasionally
                                                                                          52%
Never                         7            18%                  30%                                           Never
         Total               40           100%

Twenty-three respondents (not depicted in table or graph) reported that they had never
submitted a denial to headquarters. However, of the 40 who reported they had submitted
denials, more than half (N=21, 52%) stated that their recommendations are often
supported by headquarters. Twelve (30%) reported that headquarters supports their
recommendations occasionally. Seven (18%) reported that their denial recommendations
are never supported by headquarters.

Although this is a low percentage, it is not a silent minority. Comments such as “We
might have sent more, except it takes months, and sometimes years, to get an answer;”
and “we sent a ‘denial of liability’ (after purchase) to HQ nearly two years ago - they still
have not resolved the issue ; we really question the ‘customer service’ attitude and
activities of HQ personnel involved in these types of issues; we are reluctant to go
through this again;” as well as “Headquarters should not second guess on issues of
subjective matters,” indicate that there is a strong, if minority, opinion in the field that
headquarters is not supportive of denial recommendations.



Q. 8
                                                                      Simpler to have lender repair/withdra
Has it been your experience that it is simpler to
have the lender repair or withdraw a guaranty
rather than recommend a denial?
                       Number          Percentage              No response (3.03%)
                                                                      No (3.03%)
Yes                          62               94%
No                            2                3%
No response                   2                3%
         Total               66             100%

                                                                                             Yes (93.94%)




In spite of the 21 respondents who reported in question 7 that their recommendations are
supported, an overwhelming 94% (N=62) reported that it is simpler to have the lender
repair or withdraw a guaranty rather than recommend a denial. Only 3% (N=2) reported
that it is not simpler; the remaining 3% did not respond to this question.

One respondent commented that the majority of repairs are caused by lenders’ failure to
properly close loans; another noted that repairs are only pursued if there is a loss, or
potential loss, to the agency.

                                                    6
                                    III. Review Process
These questions were asked to uncover the similarities and differences in review
processes for different types of loans as well as the various issues that might affect the
assessments of the purchase requests. Questions also pertained to documentation that
would assist in the process. No single clear issue emerged as a reason for different
treatment; the range of responses is included for information purposes. According to
these respondents, PLP and LowDoc loans get a somewhat closer look during reviews.
Consistently, the factors mentioned most frequently as not being considered for all types
of loans when under review are repayment ability and creditworthiness. Finally, most
Directors did not believe the entire lender file is necessary for a purchase review, but they
note that some additional documentation would be helpful.

III. Review Process
The questions in this section will tell us more about the review process that is used in
your office.

Q. 9
Are there situations in your office that warrant              Different ReviewProcedures for
different review procedures for different                            Different Lenders
lenders?
                        Number         Percentage
                                                                              22%
Yes                           14             22%
                                                                                                Yes
No                            50             78%
          Total               64            100%                                                No
                                                                 78%



Of the 64 Directors who responded to this question, a majority (N=50, 76%) indicated
that review procedures for all lenders were the same in their offices. Only 15 (21%) said
that they used various procedures for different lenders.




                                                    7
Q. 10
Do these situations involve any of                            Reasons for Different Procedures
the following? (Check all that
apply)
                            Number                                           Other                                11



Size of lender                    4                    Number of repairs by lender                    5

Bank v. non-bank
lender                            4
                                                       Number of defaults by lender           3

Number of SBA loans
processed by lender               4                          Number of SBA loans
                                                                                                  4
                                                             processed by lender
Number of defaults by
lender                            3
                                                           Bank v. non-bank lender                4
Number of repairs by
lender                            5
                                                                     Size of lender               4


Other                            11
                                                                                      0   2   4       6     8   10 12


There is no clearly outstanding reason named by District Directors for using different
guaranty procedures in their offices. As one respondent noted, reviews are done on a
case by case basis. Even the “Other” item did not list any particularly outstanding
characteristic the offices use. Every possible selection represents less than 1/10 of the
total respondents. Respondent comments in the “other” category include considering the
dollar amount of the deficiency; the need to more thoroughly review PLP loans; and
lenders who have a large percentage of repairs or denials. Three respondents noted that
loans sold in a secondary market require a post-purchase review.




Q. 11
When reviewing specific cases for guaranty                                            Request Entire File
purchase, do you request the entire lender’s
file?                                                                                                 13%
                      Number          Percentage
Yes                           8              13%                                                                        Yes
No                           56              87%                                                                        No
        Total                64            100%                                  87%




A great majority of Director respondents (N=56, 87%) reported that they do not request
the entire lender’s file when doing a purchase review. Only 8 (13%) request the entire
file.


                                                   8
Q. 12
When reviewing specific cases for purchase,                        Would entire lender's file be useful
would it be useful for the reviewer
(recommending official) to have the entire file
from the lender?
                        Number       Percentage           No response (4.55%)
Yes                            20            30%                                                   Yes (30.30%)
No                             43            65%
No Response                     3              5%
         Total                 66           100%
                                                           No (65.15%)




Sixty five percent (N=43) of the respondents reported that it would not be useful for
reviewers to have the entire lender’s file. Only thirty percent (N=20) report that the
entire file would be useful, one commenting “Without question (!!!).” Another added
that while it might be useful, it was not very practical. As noted, 3 respondents (5%)
chose not to answer this question.




Q. 13                                                                        'Would other documents assist purchase
If not the entire lender file, are there other
documents that would assist you in your
purchase reviews?                                                No response (9.09%)
                         Number          Percentage
Yes                              36             55%
No                               24             36%
No Response                       6              9%            No (36.36%)                                        Yes (54.55%)
          Total                  66            100%




Just over half (N=36, 55%) of the respondents reported that other documents would assist
purchase reviews. More than 1/3 (N=24, 36%) reported that additional documents would
not assist reviews; 6 (9%) did not respond to this question.

This question elicited a number of respondent comments. Almost every conceivable
document was mentioned. Supporting documentation for UCC filings and equity
injections were named most frequently. As one respondent noted, it is difficult to list
other documents “because they can vary so much in each individual case and between
district offices.” This respondent noted the usefulness of the nation-wide checklist now
being prepared, the need to update the SOP, as well as the need for standardized training
for district offices and lenders “so that everyone knows what is expected of them and
there will be more consistency between offices.”


                                                      9
One respondent noted that items on the checklist are “more than sufficient.” Another
Director noted that the “guaranty purchase process has gotten too complicated . . . the IG
and the central office staff second guess field purchasing decisions . . . using the same
information that the field office used to make a purchase decision, the IG and OFA are
coming back to the field and having them go back to the lender to ask for money back.
This totally destroys the lending community’s faith in the SBA’s guaranty. We and
Congress must accept the fact that the government is going to recover less money and
occasionally take a hit from a less than honest or knowledgeable lender.” This Director’s
final comment: “We also need to reduce Legal Council’s (sic) ability to force purchase
decisions to Washington every time they have a minor objection to a purchase.”


Q. 14, Q. 15, Q. 16
In questions 14-16, Directors were asked to check which of the following factors (listed
below) their loan officers do NOT consider when conducting reviews for particular types
of loans. Question 14 asked about PLP and LowDoc; question 15 asked about CLP;
question 16 referred to regular loans.

                          Factors NOT Considered in Purchase Reviews:
                *repayment ability                     *creditworthiness
                *equity injection                      *conflict of interest
                *use of proceeds                       *eligibility
                *collateral missing                    *IRS verification
                *collateral not controlled             *collateral insufficient
                *adverse conditions between approval   *standby agreement
                & disbursement
                *adverse conditions after disbursement *other
                                                       *all of the above



All Items Are Considered During Purchase Reviews
Some respondents to questions 14, 15, and 16 indicated that reviewing officials in their
respective offices considered all of the listed items. The following chart shows the
number of District Directors who reported that their loan officers considered all items.

                             Respondents who Consider ALL Items
                                           Number              Percent of Total
                                                           Respondents (N=66)
             (Q. 14)   PLP and LowDoc                   27                        41%
             (Q. 15)   CLP                              18                        27%
             (Q. 16)   Regular                          18                        27%

Directors’ responses that their loan officers consider all items indicated that PLP and
LowDoc loans get the closest look when their guaranty requests are undergoing review.
However, results showed that less than half of the offices review all factors even with
PLP loans. Even fewer offices reported examining all factors for CLP and regular loans;
just over ¼ of the Directors indicated that all items are considered when these loans are
reviewed.



                                                10
Q. 14
 Items which are not considered for PLP
 and Low Doc Reviews
                                                                                                                                                                33

 equity injection                         2




                                                                                                                              ty
                                                                                                                          bili
                                                                                                                        ta
                                                                                                                      en
                                                                                                                                                                31
 other                                    2




                                                                                                                     m
                                                                                                                   ay
                                                                                                                rep
 adverse conditions b/n approval




                                                                                                              s
                                                                                                            es
 & disbursement                           3




                                                                                                        thn
                                                                                                          i
                                                                                                                                                          24




                                                                                                      or
                                                                                                  ditw
                                                                                               cre
 IRS verification                         3




                                                                                          ient
                                                                                      ffic
 adverse conditions after                                                                                                                       11




                                                                                    su
                                                                                l in
 disbursement                             7




                                                                             era


                                                                         ility
                                                                         lat


                                                                      gib
                                                                       co


                                                                   eli
 eligibility                              11                                                                                               7


 collateral insufficient                  24




                                                                                       rse
                                                                                                                                       3




                                                                                     bu
                                                                                  dis
 creditworthiness                         31




                                                                               er


                                                                            on
                                                                            aft


                                                                         ati
                                                                        ns


                                                                   rific
                                                                    itio
                                                                 nd
                                                                                                                                       3




                                                                 ve
 repayment ability                        33




                                                               co



                                                              S
                                                            IR
                                                           rse
                                                         ve
                                                       ad




                                                                                               ...
                                                                                                                                       2




                                                                                l
                                                                             prv
                                                                           ap



                                                                                                                   er
                                                                       b/n



                                                                                                                oth
                                                                    ns
                                                                itio
                                                              nd
                                                                                                                                       2
                                                            co
                                                           rse
                                                         ve
                                                       ad




                                                                                                 n
                                                                                             ctio
                                                                                                                                   0       10        20    30        40


                                                                                         inje
                                                                                    uity
                                                                                  eq




In answering question 14, Directors and Branch Managers indicated that repayment
ability (N=33) and creditworthiness (N=31) are most frequently not considered during
purchase reviews for PLP and LowDoc loans.




                                               11
Q. 15
 Items which are not considered for
 CLP Reviews


 collateral missing                   1


 collateral not controlled            1


 standby agreement                    1


 equity injection                     2


 use of proceeds                      2

 adverse conditions b/n
 approval & disburse                  3


 conflict of interest                 3


 IRS verification                     5

 adverse conditions after
 disburse                             8


 eligibility                          24


 collateral insufficient              30


 creditworthiness                     38


 repayment ability                    39

Every possible factor was mentioned at least once as not being considered when
conducting purchase reviews for CLP loans. As in question 14, the two most frequently
ignored factors are repayment ability (N=39) and creditworthiness (N=38).




                                           12
Q. 16
 Items which are not considered for
 regular Reviews


 use of proceeds                       1


 conflict of interest                  2


 other                                 2


 equity injection                      3


 IRS verification                      3

 adverse conditions b/n approval &
 disburse                              4


 adverse conditions after disburse     6


 eligibility                          26


 collateral insufficient              31


 creditworthiness                     37


 repayment ability                    41

As in question 15 above, almost every possible factor listed was named at least once as
not being considered when doing regular purchase reviews. Similar to questions 14 and
15, the items most frequently not considered are repayment ability (N=41) and
creditworthiness (N=37).

Comments in response to questions 14, 15, and 16 explained why they do not consider all
of the factors listed. Directors shared the notion that these loans were reviewed at the
time of loan approval; the second most common comment was: “we do not second guess
credit decisions.




                                           13
General Comments

Q. 17
This question provided an opportunity for respondents to make any additional comments
that occurred to them as they completed the survey instrument. As might be expected,
respondents addressed a range of issues and did not always agree.

One director suggested SBA implement a requirement for purchase to follow liquidation.
A common theme was the need to standardize purchase procedures and share review
findings across districts. Several suggested additional training for district loan
specialists. One respondent requested a purchase SOP; another added that the SOP
should be improved to provide sufficient detail and examples of evidence for such
aspects as equity injection, adequate servicing, and protection of collateral.

Who should be conducting purchase reviews was another topic – one respondent noted
that they should be done by “District Office personnel with a financial background who
are familiar with lenders, business climate and institutional memory;” another countered
that the “agency proposal to centralize loan purchases is a good idea.”




                                           14
Appendix to Directors’ Survey Responses




                  15
                                    Directors’ Cover Letter

April 26, 2002

Title FName LName
Job Title
Company
Address
City state zip

Dear Mr/Ms:

As you may be aware, the Office of Inspector General is performing an audit of SBA’s guaranty
purchase process. As a part of the audit, we are surveying field office personnel who make
recommendations regarding loan guaranty purchases. We want to include you, the District
Directors, in our survey. The purpose of the enclosed questionnaire is to gain information in
order to improve the guarantee purchase process. As a person directly involved in the purchase
process, your contribution is valuable.

Our pilot showed that it takes approximately 12 - 15 minutes to complete the survey. Although it
is not mandatory for you to complete the survey, our results will be much better with full
participation.

We also want to assure you that we are making every effort to ensure your answers remain
anonymous. You will notice a hand written number in the top left-hand corner of the return
envelope. We will use this number only to track who has and has not responded, so that we can
make follow up reminders. Once the response period is completed, the numbers and identifying
information will not be retained.

Detailed directions concerning how to indicate your responses are on the first page of the form.
Also, each major section begins with information and instructions to help you better answer the
questions. If you have any questions or comments about the survey or the guarantee purchase
process, please call Laura Makray (202.205.3178).

Please send us your reply by May 17, 2002. We greatly appreciate your efforts in replying to the
survey, and thank you in advance for your cooperation.

Sincerely,


Robert G. Seabrooks
Assistant Inspector General for Auditing

Encl. 3 page survey




                                                16
                             Director’s Guaranty Purchase Survey
This survey contains questions about the guaranty purchase process. Please answer each question
carefully. Most of the questions are multiple choice or yes/no. For each of these, please
checkmark the line corresponding with the most accurate answer.

For some questions, you are asked to describe or discuss your answer. If we have not provided
enough space for you, please use a blank sheet of paper, and be sure to indicate which question
you are responding to.

I. Time/Workload
In this section, we ask about your                   II. Management
office’s workload.                                            Given all the changes that have
                                                     occurred in recent years, this section addresses
1) On average, how many purchase reviews             your perceptions regarding whether headquarters
                                                     supports your office’s guaranty purchase
does your office complete per week?                  decisions.
       _____ a) 0 – 3
       _____ b) 4 – 10
       _____ c) 11 – 15                              5) Has your office ever made a
       _____ d) 16 or more                           recommendation to deny a guaranty?
                                                             _____ a) yes
2) On average, how many purchase requests
does your office receive per week?                           _____ b) no
        _____ a) 0 – 3
        _____ b) 4 – 10
        _____ c) 11 – 15                             6) Over the past 3 years, how many denials
        _____ d) 16 – 20                             have you sent to D.C. Headquarters?
        _____ e) 21 or more                                  (please write here: ___________)

3) How many personnel currently conduct
purchase reviews? (Write the number.)                7) In your experience, do you find that
       __________                                    headquarters supports your
                                                     recommendations to deny a guaranty?
4) Does your office have a purchase
backlog?                                                     _____ a) often
       _____ a) yes (If yes, answer 4a                       _____ b) occasionally
                 below)
       _____ b) no                                           _____ c) never
                                                             _____ d) our office has not
4a) If yes to question 4, what is your
                                                                       submitted a denial to
purchase backlog?
         _____ a) 0 – 25                                               headquarters
        _____ b) 26 – 50
        _____ c) 51 – 100                            8) Has it been your experience that it is
                                                     simpler to have the lender repair or
        _____ d) 101 or more (please
                                                     withdraw a guaranty rather than recommend
          specify: ___________)
                                                     a denial?
                                                             _____ a) yes
                                                             _____ b) no




                                                17
III. Review Process                                        13) If not the entire lender file, are there
                                                           other documents that would assist you in
         The questions in this section will tell us
more about the review process that is used in
                                                           your purchase reviews?
your office.                                                       _____ a) yes (please list below)
                                                                   _____ b) no
9) Are there situations in your office that
warrant different review procedures for                    If yes, please list here:
different lenders?                                         ____________________________________
        _____ a) yes
        _____ b) no                                        ____________________________________
                                                           ____________________________________
10) Do these situations involve any of the
following characteristics? (Check all that                 ____________________________________
apply)                                                     ____________________________________
        _____ size of lender
        _____ bank v. non-bank lender                      ____________________________________
        _____ number of SBA loans
                processed by lender                        14) Please indicate by marking which, if
        _____ number of defaults by lender                 any, of the following are not considered for
        _____ number of repairs by lender                  PLP and LowDoc reviews:
        _____ other (please explain below)                     ______Repayment ability
____________________________________                           ______Equity injection
____________________________________                           ______Use of Proceeds
____________________________________                           ______Collateral missing
____________________________________                           ______Collateral not controlled
____________________________________                           ______Adverse conditions between
____________________________________                                    approval and final disbursement
                                                               ______Adverse conditions after
11) When reviewing specific cases for                                   final disbursement
guaranty purchase, do you request the entire                   ______Creditworthiness
lender’s file?                                                 ______Conflict of interest
        _____ a) yes                                           ______Eligibility
        _____ b) no                                            ______IRS verification
                                                               ______Collateral Insufficient
12) When reviewing specific cases for                          ______Standby Agreement
purchase, would it be useful for the reviewer                  ______Other (please explain below)
(recommending official) to have the entire                          _____________________________
file from the lender?                                               _____________________________
         _____ a) yes                                               _____________________________
         _____ b) no                                           ______ All of the above factors are
                                                               considered when doing a PLP or
                                                               LowDoc review




                                                      18
15) Please indicate by marking which, if            17) Please use the rest of this page, and/or
any, of the following are not considered for        additional paper to make any further
CLP reviews:                                        suggestions or comments that have occurred
    ______Repayment ability                         to you as you have completed this
    ______Equity injection                          questionnaire.
    ______Use of Proceeds
    ______Collateral missing                        Thank you for spending the time to fill out
    ______Collateral not controlled                 this survey. Please put the completed
    ______Adverse conditions between                questionnaire in the enclosed return
             approval and final disbursement        envelope and mail it back to us.
    ______Adverse conditions after
             final disbursement
    ______Creditworthiness
    ______Conflict of interest
    ______Eligibility
    ______IRS verification
    ______Collateral Insufficient
    ______Standby Agreement
    ______Other (please explain below)
         _____________________________
         _____________________________
         _____________________________
    ______ All of the above factors are
    considered when doing a CLP review

16) Please indicate by marking which, if
any, of the following are not considered for
regular loan reviews:
    ______Repayment ability
    ______Equity injection
    ______Use of Proceeds
    ______Collateral missing
    ______Collateral not controlled
    ______Adverse conditions between
             approval and final disbursement
    ______Adverse conditions after
             final disbursement
    ______Creditworthiness
    ______Conflict of interest
    ______Eligibility
    ______IRS verification
    ______Collateral Insufficient
    ______Standby Agreement
    ______Other (please explain below)
         _____________________________
         _____________________________
         _____________________________
    ______ All of the above factors are
    considered when doing a regular review




                                               19
       Guaranty Purchase Review Process: Loan Officers’ Survey Responses

                                      Introduction

        This section presents responses to one of two surveys regarding the SBA
Guaranty Purchase process. These surveys were conducted in conjunction with an OIG
audit of the Guaranty Purchase Review process. The purchase process is significant
because it is the final control for insuring that lenders comply with rules and regulations
that govern the guaranteed loan program. During the planning of the audit, various issues
emerged that indicated a value to obtaining the observations and opinions of field
personnel responsible for guaranty purchase reviews. We refer to these individuals as
“loan officers,” even though their jobs include several titles. These SBA field personnel,
responsible for Guaranty Purchase Reviews, were asked to complete a survey instrument.
The companion report covers the responses of District Directors and Branch Managers to
a separate questionnaire. The loan officer survey instrument included que stions relative
to workload; their individual experience; management; training; the Review process; risk
assessment; monitoring; and communications. The survey’s major purpose was to obtain
the loan officers’ perceptions about their experience with these aspects of the purchase
review process.

        The results of this respondent survey are significant. In addition to the
importance of the purchase review process, the exceptional response rate indicates that
loan officers have strong opinions about the issue of purchase reviews. Respondents also
took advantage of the opportunity to include some very direct comments. The responses
are being analyzed in conjunction with other information as part of the OIG audit,
therefore any recommendations on the purchase process will be included in that report.
However, because of the significance of the purchase process, as well as the strong
response rates, OIG is issuing this separate, informational report.

        All the results in this report are taken from the data submitted by the 145 SBA
field employees who answered questions on the Loan Officers’ survey. Results from
each question are illustrated in the following pages. The question is included in the
header of each table; most tables are illustrated by accompanying graphs. Respondents
provided a number of comments. Because of the magnitude of the response, it is
impossible to include all of them here; however, representative examples are provided.
The analysis of each question follows the table and graph. With very few exceptions,
there was a great deal of unanimity in the answers of this group. Most answers include a
category where 40% or more agreed. Given the significant response rate, this measure of
agreement further strengthens the validity and reliability of the findings.




                                            20
                                      Methodology

         Pen and paper survey forms were mailed to a total of 192 SBA employees
identified as conducting guaranty purchase reviews in their local offices; included
responses were received by June 28, 2002. The survey instrument was tested in April,
2002. The purpose of the survey was to get the perspective of these loan officers
regarding the Guaranty Purchase Review process. (A copy of the instrument and cover
letter are found in Appendix I). A total of 149 replied, giving us an overall response rate
of 78%. However, 4 of the original respondents disqualified themselves. Thus, the base
rate for the total number of respondents who completed some or all of the survey is 77%
(N=145). The answers from each instrument were entered into an Access database and
the tables and graphs used for analysis in the following section were derived from that
original information.

        In some cases, not all respondents answered every question. Thus, the number of
responses varies across different questions. However, the actual number of respondents
to each question is always indicated in the table. At times, depending on the nature of the
question, the “no responses” are included and that number is also indicated in each
applicable table. In some cases, the percentages do not add up to exactly 100% due to
rounding.

        Additional documents were used for contextual information in the preparation of
the survey instruments. Overall, the response rate is quite significant and adds an
appreciable measure of reliability to the findings. However there are a few questions
where many of the respondents did not reply. In most of Section IV, Questions 18-22, as
well as Questions 30, 31, 32, 38, 39, 41 and 42, a number of respondents chose not to
answer. We have reported these results for information. It is important for the reader to
keep in mind that this instrument measures the perceptions of those people who chose to
respond to the survey.




                                             21
                                               Results

                                     I. Time/Workload
Questions in this sectio n of the Loan Officers’ survey asked respondents for their
perceptions regarding their individual as well their office’s workload. Most purchase
request reviewers reported that their offices receive, and they individually complete, 3 or
fewer requests per week. Most respondents also stated that they are given adequate time
to complete their work on the requests. The majority begin their work within a week, and
most complete the review in less than a month. Most reported that they use the same
criteria for all reviews, but numerous caveats were reported.

I. Time/Workload
In Questions 1-7, we ask about your workload, as well as that of your office.

Q. 1
 On average, how many
                                                                    Purchase Reviews per Week
 purchase reviews do
 you complete per
 week?                      Number       Percentage                  14%     1%
                    0 -3       123          85.42%                                                    0-3
                                                                                                      4 - 10
                  4 - 10        20          13.89%
                                                                                                      11 - 15
                 11 - 15         1             .07%
                                                                                  85%
             16 or more
                   Total           144      100.00%

A large majority (N=123, 85%) of loan officer respondents reported that they personally
complete 3 or less purchase reviews per week. An additional 20 (14%) respondents
reported doing from 4 to 10 reviews; only 1 reported completing more than 10.



Q. 2
 On average, how many
                                                                   Purchase Requests per Week
 purchase requests does your
 office receive per week?          Number    Percentage                      1%

                            0 -3       81         57.9%              6% 1%                      0-3
                                                                                                4 - 10
                          4 - 10       47         33.6%
                                                                                                11 - 15
                         11 - 15        9          6.4%      34%
                                                                                        58%     16 - 20
                         16 - 20        2          1.4%
                                                                                                21 or more
                     21 or more         1          0.7%
                           Total      140         99.3%

Of the 140 loan officers who responded to this question, a majority (N=81, 58%) stated
that their offices receive 3 or less purchase requests per week. Forty seven officers (34%)
reported receiving from 4 to 10 weekly purchase requests. Only 1 (7%) respondent
reported receiving more than 20 weekly requests.




                                                  22
Q. 3
 Are you given adequate
                                                                         Given Adequate Time
 time to do a thorough
 review of each guaranty                                                     1%
 request that is assigned to                                      9% 6%
                                                                                                5) always
 you?                           Number   Percentage                                             4)
 5) always                          85        60.3%                                             3) half the time
                                                            24%                         60%
 4)                                 34        24.1%                                             2)

 3) half the time                   12         8.5%                                             1) never

 2)                                  9         6.4%
 1) never                            1         0.7%
                        Total      141        99.3%


Most respondents (N=85, 60%) who answered this question stated that they are given
adequate time to complete their assigned requests. Only 1 (7%) reported never being
given enough time.



Q. 4
                                                                                            less than a day
                                                                   Length of Time to Begin Review
On average, what is the length of
time from when you first receive                                     1%
                                                                                              1 day to less than
an assignment to review a                                           4%                        1 week
                                                                             8%
purchase request and the time you                            19%                              1 week to less
begin your work on that case?        Number    Percentage                                     than 1 month
less than a day                          11          7.7%                                     1 month to less
                                                                                              than 3 months
1 day to less than 1 week                96         67.6%                         68%
                                                                                              unsure
1 week to less than 1 month              27         19.0%
1 month to less than 3 months             6          4.2%
3 months or more                          0          0.0%
Unsure                                    2          1.4%
                             Total      142       100.0%



Most respondents (N=96; 68%) stated that they begin working on purchase requests in
less than 1 week; combined with those who reported beginning the same day (N=11, 8%),
the total who begin in less than 1 week is 107 (75%). Only 6 (4%) reported waiting more
than a month to begin, 0 reported waiting more than 3 months; 2 were unsure.




                                                23
Q. 5
Indicate the length of time                                                                less than a day
                                                                  Length of Time to Begin Review
between when you first                                                  5%                   1 day to less than
receive an assignment to                                                                     1 week
review a purchase request                                                                    1 week to less
                                                                  5%         6%
and the time it is completed.     Number   Percentage                                        than 1 month
                                                            23%                    29%
less than a day                        8         5.7%                                        1 month to less
                                                                                             than 3 months
1 day to less than 1 week             41        29.3%
                                                                       32%                   3 months or more
1 week to less than 1 month           45        32.1%
1 month to less than 3 months         32        22.9%                                        unsure
3 months or more                       7         5.0%
Unsure                                 7         5.0%
                          Total      140      100.0%

Completing requests seems to take a little longer. Most respondents (N=45, 32%)
reported that they complete reviews in 1 week to 1 month. Adding the first two
categories, less than a day and less than a week, the reported total is 49 (35%) who finish
that quickly.

Several respondents commented on this question, noting that their ability to complete the
review in a timely manner is quite dependent on whether the lender provides a total
package. “Depends upon bank supplying documentation requested;” “Varies greatly
depending primarily on the participant;” “Up to the lender” represent the kinds of
comments that were made. One reviewer noted: “Some cases may take months because
the lender fails to send the required documentation.”


Q. 6
How frequently do you                                             Additional Information Needed
have to ask the lender for
additional information?       Number   Percentage                             1%
                                                                       5%                       5) always
5) always                         63        43.8%              13%
                                                                                                4)
4)                                54        37.5%                                    43%
                                                                                                3) half the time
3) half the time                  19        13.2%                                               2)
2)                                 7         4.9%              38%
                                                                                                1) never
1) never                           1         0.7%
                      Total      144      100.1%

These graphs illustrate that a large majority of those doing purchase reviews have to
request additional information. While reportedly, 63 (44%) always do, and 54 (38%) do
so more than half the time, aggregating these numbers shows that 117 (81%) of the loan
officers who answered this question reported they must ask lenders for additional
information. Only 8 (6%) respondents reported needing more documentation from the
lender less than half the time.

One respondent added that her/his office almost always needs additional documentation,
“especially with PLP lenders.” As with the previous question, respondents expressed
frustration with the lender not providing what is needed: “Often it takes 2 or 3 requests
to acquire all needed documentation.”


                                                24
Q. 7
Are all loans, (regular, PLP,                                       Same Criteria for all Loans
CLP) reviewed using the
same criteria?                    Number   Percentage                   2%
                                                              19%
Yes                                  114      78.62%                                              yes
No                                    28      19.31%                                              no
no response                            3        2.07%                                             no response
                          Total      145     100.00%                             79%



While 3 respondents (2%) chose not to answer this question, the overwhelming majority
of those who did answer (N=114, 79%) stated that reviews of purchase requests for all
types of loans named in the question are performed using the same criteria.

However, a number of respondents added additional comments to this question. As one
respondent noted, “Each has slightly different criteria.” Others pointed out that PLP and
LowDoc loans require different criteria, and if the loan defaults in a short time, or is
flagged: “Additional information is required.” Further, several noted that for these loans,
credit underwriting and lender actions are scrutinized. Another common theme was
whether the district offices had already reviewed the loan; if so, many respondents told
us, these purchase requests are given less scrutiny.



                                      II. Individual
The questions in this section focus on the individual respondent completing the survey.
The majority of our respondents noted that they as individuals were the primary
reviewers of purchase requests. Almost half reported 5 or more years’ experience doing
purchase reviews; most added that they spend 25% or less of their time completing
guaranty requests.

II. Individual
In Questions 8-11, we ask for information that will tell us about your experience in
performing guaranty purchase reviews.

Q. 8
In the last 12 months                                                    Primary Reviewer
were you the primary
reviewer on a guaranty                                               16%
purchase request?            Number   Percentage
                                         84.14%                                                           yes
                      yes       122
                                         15.86%                                                           no
                       no        23
                    Total       145     100.00%                                     84%



Answers to this question indicate that a large majority (N=122, 84%) of the respondents
have served as the primary reviewer on a guaranty purchase request during the 12 months
prior to answering the survey.




                                                   25
Q. 9
How long have you been
                                                                 Purchase Review Experience
doing guaranty purchase
reviews?                    Number     Percentage                                       less than 1 year
less than 1 year                15         10.34%                       10%
                                                                                        1 year to 3 years
1 year to 3 years               38         26.21%         47%                    26%
more than 3 years to 5                                                                  more than 3 years
years                           25          17.24%                                      to 5 years
                                                                        17%
5 years or more                 67          46.21%                                      5 years or more
                    Total      145         100.00%

This question reveals that experienced loan officers are in the field, conducting purchase
reviews; 67 (46%) reported having 5 or more years’ experience; an additional 25 (17%)
have 3 to 5 years’ experience. Only 15 (10%) reported having less than 1 year’s
experience.



Q. 10
On an average day, how do                                           % of Time doing Reviews
you spend your time?                                                                      100% on guaranty
                                                           39%
                              Number       Percentage                                     purchase reviews
                                                                                          75% on guaranty
100% on guaranty purchase                                             1%   11%
                                                                                          purchase reviews
reviews                               2          1.4%                             23%     50% on guaranty
                                                                                          purchase reviews
75% on guaranty purchase                                                                  25% on guaranty
reviews                               15        10.6%                   26%               purchase reviews
50% on guaranty purchase                                                                  less than 25%
reviews                               32        22.5%
25% on guaranty purchase
reviews                               37        26.1%
less than 25%                         56        39.4%
                     Total           142       100.0%

Only 2 (1%) respondents reported spending all their time doing purchase reviews. Most
(N=56, 39%) reported they spend le ss than 25% of their time doing reviews. Thirty
seven (26%) reported they spend ¼ of their time doing purchase reviews. Aggregating
these two categories, shows that 93 (65%) of the respondents to this question report
spending 25% or less of their time conducting purchase reviews. As one pragmatic
respondent noted, “It depends on how many have come in.”




                                                 26
Q. 11
I am given enough time to                                                          Given Adequate Time
thoroughly review all guaranty
requests that are assigned to me.      Number     Percentage                       5%
                                                                             8%                          5) always
5) always                                  88          62.4%
                                                                                                         4)
4)                                         35          24.8%           25%                               3) half the time
3) half the time                           11           7.8%                                  62%
                                                                                                         2)
2)                                          7           5.0%
1) never                                    0
                              Total       141           100.0%

Question 11 confirms Question 3; of the loan officer respondents to this survey, 62%
(N=88) are always given enough time to perform thorough purchase reviews. While this
is more than half, it means that of the respondents to this survey, a significant 38%
reported they are not given adequate time to thoroughly review guaranty requests all of
the time.


                                     III. Documentation
Questions in this section elicited a substantial number of comments. Most respondents
indicated that the SOP provides enough information. However, even more thought it
should be strengthened. Several provided specific suggestions. Most reported using
internal or informal documentation to guide their purchase reviews. A slim majority
believed that the entire lender file would be helpful; an even higher number would like
additional documents. The final two questions ask what constitutes adequate evidence of
use of proceeds and equity injection. These resulted in a broad range of answers.

III. Documentation
Questions 12-17 are designed to tell us whether you find the documentation which guides
the guaranty review process adequate. We also want to know if you have other
documentation to guide your review recommendations.

Q. 12
                                                                                   SOP 50 50 4
Does SOP 50 50 4 provide
enough information for you to                                                 6%
make confident determinations                                          8%               19%
                                                                                                    5) always
about guarantee purchase                                                                            4)
                                                                 19%
recommendations?                      Number    Percentage                                          3) half the time
5) always                                 25         19.2%                                          2)
                                                                                        48%
4)                                        61         46.9%                                          1) never

3) half the time                          25         19.2%
2)                                        11          8.5%
1) never                                   8          6.2%
                         Total           130       100.0%

Less than 20% (N=25, 19%) of the 130 respondents to this question answered that
SOP 50 50 4 always provided enough guidance. Thus, the aggregated data show that
80% (N=125) of the respondents do not always find adequate guidance in the SOP.



                                                   27
Q. 12 a
 Are there particular areas of                                        Strengthen SOP Areas
 the SOP relevant to guaranty
 purchase that you believe
 should be strengthened?            Number   Percentage
                                                                41%
                             Yes        78      58.65%                                         yes
                                                                                               no
                               No       55      41.35%                                59%
                           Total       133     100.00%


While many respondents reported they found SOP 50 50 4 to provide adequate
information all the time, 78 (59%) of the 133 respondents to this question reported that
particular areas of the SOP should be strengthened. Less than half, (N=55, 41%) stated
that particular areas of the SOP should not be strengthened.

Respondents interjected a considerable number of comments regarding this question.
Repairs were frequently mentioned as an area of concern. Repeatedly, loan officers
asked for specific examples, overall clarification, and precise directions for determining
the amount or percentage of a repair. One respondent noted “some clear statement that if
the SBA has not been harmed we do not repair” is needed. While the Directors’ survey
indicated the usefulness of repairs; the loan officers expressed much uncertainty and
often requested additional, adequate instructions regarding repairs.

Issues regarding use of proceeds and equity injection elicited many comments in
Questions 16 and 17, but numerous remarks to this question included requests for
additional direction regarding equity injection requirements; acceptable sources for
equity injection; and adequate verification. One respondent commented: “I’ve many
times observed a LO mentally checking cash injection off the list simply because the
Lender provided some paper and labeled it cash injection. The SOP needs to provide the
LO with specific information on what to look for.” Conversely, one respondent
commented that “less emphasis should be put on getting cash injection and use of
proceeds. Most lenders don’t require evidence on their own loans in their portfolio.” To
summarize many varied comments, one loan officer requested putting specific
requirements in writing: “It seems like everyone has their own views on what can be
considered to cover evidence of the injection.”

Overall, many aspects of the purchase process were named – numerous respondents
asked for specific guidelines, a handbook, more examples, a new chapter, a new purchase
SOP. One respondent noted that SOPs are “extremely vague and poorly organized.”
Inadequate checklists; insufficient penalties to lenders that cause unnecessary delays;
additional directions regarding verification of lender’s transcript and proof of proper lien
position are some of the specifics named. One loan officer asked for specific guidelines
“that are relative to the audit team review findings.” One respondent noted, “We need a
complete rewrite.”




                                                28
Q. 13
 Do you have any additional                                   Additional Informal Documentation
 internal or informal
 documentation that provides
                                                                        2%
 guidance to you in your
                                                                                                yes
 guaranty purchase process?       Number   Percentage       45%
                                                                                                no
 Yes                                  77       53.10%                               53%
                                                                                                no response
 No                                   65       44.83%
 no response                           3        2.07%
                         Total       145     100.00%

Just over half of the total respondents (N=77, 53%) reported using their own internal
guidance documentation. Almost 45% (N=65) stated that they do not use their own
informal documentation.

According to this survey question, there is quite a range of informal documentation being
used in the field. Those who reported using additional documentation frequently
mentioned either their own or their particular field office’s unique checklist. Others use
cuff notes, and their own or their immediate predecessor’s notes. Respondents also listed
the loan authorization; forms; “30 years of experience;” in house flow chart; word of
mouth; as well as discussion with legal counsel. Several noted that these materials are
based on the SOPs or Loan Authorizations. Still, it is clear that many field offices are
using their own materials and procedures to conduct these reviews.



Q. 14
 When reviewing specific cases                                          Lender's Entire File
 for purchase, would it be useful
 for the reviewer
 (recommending official) to have
 the entire file from the lender?     Number   Percentage         48%                                     yes
 Yes                                      74      52.11%                                  52%             no
 No                                       68      47.89%
                              Total      142     100.00%

Views of the 142 respondents to this question are divided almost 50-50. While just over
half (N=74, 52%) stated that the entire file would be useful, just less than half (N=68,
48%) reported that the entire file would not be useful.

Comments relative to this question ranged from “it is essential,” to “in some instances,”
to “requesting the entire file from the lender is just an extra burden for them and us.” As
the above table and graph indicate, opinions regarding the efficacy of having the entire
file are almost evenly divided.




                                                 29
Q. 15
 If not the entire lender file,
                                                                   Other Documents from Lender
 are there other documents
 that would assist you in
 your purchase reviews?           Number   Percentage
 Yes                                  73      56.15%             44%
                                                                                                 yes
 No                                   57      43.85%                                             no
                                                                                        56%
                          Total      130     100.00%



Only 130 respondents answered this question; of those who chose to respond, 73 (56%)
noted that additional documents would assist their purchase reviews. Fifty seven (44%)
indicated that additional documents would not be useful.

Several respondents noted that additional documents would be useful on a case by case
basis. However, numerous comments naming specific documents included legal
documents, financial statements, and lien searches. The list of additional helpful
documentation further included internal bank documents, including lender’s transcript,
original credit memos, loan report, and settlement closing documents, as well as lender’s
field notes and correspondence.


Q. 16
What do you consider adequate evidence of use of proceeds ?

Perhaps the most obvious answer to the question concerning evidence of use of proceeds
would be paid invoices. More than half the respondents listed this, often in conjunction
with copies of cancelled checks and additional types of proof. Others mentioned include
financial statements, 1050’s, disbursement sheets, UCCs, SBA form, and “verifiable
documentation from the lender.” While it is expected that many types of proof would be
used, given the many types of loans, and the many uses of the funds allowed, it is clear
that there is a lack of consistency among various field offices. Evidently, the same is true
within offices – one respondent noted that “It changes week to week in my office.”


Q. 17
What do you consider adequate evidence of equity injection?

The most frequently mentioned documentation included cancelled checks, with copies of
paid invoices and bank statements closely following. Most respondents look for a
combination of these, and many noted that bank records are important in determining
whether the documentation is adequate. One respondent noted that the key question is
“where is the owner getting his money?” – adding that this is not asked by most banks.
Another added “lenders’ methods are sorely lacking.” Gift letters were mentioned, and
most noted that these are indeterminate: “A gift letter is not the solution since the
borrower in question still has nothing at risk.” Another requires proof that the gift has
been properly reported to the IRS.


                                                 30
Respondents indicated a lack of clarity and direction: “It depends on who you ask.”
Another added “it depends on what the injection was required for.” Perhaps most
indicative is the comment “The fact that this is a question on the survey demonstrates that
SBA has not definitively determined what constitutes adequate evidence of equity
injection. This is a matter of policy and should be addressed in the SOP.”



                                      IV. Management
Questions in the Management section of the survey asked respondents to express whether
they believe they are supported in their purchase decisions by their local offices as well
as D.C. Headquarters. In this section, they were also asked whether review procedures
vary for different lenders and if so, in what way. A significant number of respondents did
not answer some of these questions. Those who did answer reported that their sense of
support decreased as it moved upward through the hierarchy: over half who answered
said their supervisor supports their decisions; less than 40% reported that headquarters
supports their decisions. Respondents further noted that they review all lenders’ loans in
the same way. According to these respondents, when there are differences in treatment, it
is mostly determined by a large number of repairs and defaults on the part of the lender
under review.

IV. Management
    Given all the changes that have occurred in recent years, we are asking the questions
in this section to address your perceptions regarding whether field and headquarters
management have supported your recommendations to deny a purchase.

Q. 18
 Circle the selection that best                                       Supervisor Supports Denial
 describes whether your                                                   Recommendations
 immediate supervisor supports                                              4%
 your purchase denial                                                  3%                     5) always
 recommendations.                     Number   Percentage             4%                      4)
 5) always                                63        55.8%                                     3) half the time
                                                                34%                55%
 4)                                       38        33.6%                                     2)
 3) half the time                          5         4.4%                                     1) never

 2)                                        3         2.7%
 1) never                                  4         3.5%
                              Total      113       100.0%

Of the 113 responses to this question, almost 56% (N=63) responded that their supervisor
always supports their denial recommendations. An additional 38 (34%) stated that their
recommendations are supported by their supervisor more than half the time.

A significant 32 people (almost ¼ of the total respondents) did not respond to this
question. One reason named by many is that they have not recommended denials, and
therefore did not answer the questions in Section IV. While over half reported always
being supported by their supervisors, those in the minority were quite direct in their
comments. One noted that “we are strongly discouraged from recommending a denial or


                                                 31
even an adjustment or repair.” Another adds that “We’ve never completely denied
liability, but supervisor always supports recommendation.” A third commented: “I have
obtained voluntary releases and reduced guaranty percentages where warranted without
objection by participant.”


Q. 19
 Circle the selection that best
 describes whether your office                                            Office Supports Denial
 supports your purchase                                                    Recommendations
 denial recommendations.             Number   Percentage                      5%
                                                                                                    5) always
 5) always                               49        44.1%          13%
                                                                        5%
                                                                                                    4)
 4)                                      38        34.2%                                 43%
                                                                                                    3) half the time
 3) half the time                        14        12.6%
                                                                                                    2)
 2)                                       5         4.5%           34%
                                                                                                    1) never
 1) never                                 5         4.5%
                            Total       111      100.0%

Of the 111 who responded to this question, only 44% (N=49) reported that their offices
support their denial recommendations. Thus, while they reported that supervisors
supported their recommendations almost 56% of the time, there is some level of
divergent opinion at the local level.

As in Question 18, a significant number (almost 25%) of respondents did not answer the
question. While well over half of the respondents noted that their supervisors support
their decisions, the percentage of those reporting that their office agrees drops. The
comments indicate that they receive voluntary releases and repairs. No one directly
addressed why there is less support from the office.


Q. 20
 Circle the selection that best                                         DC Supports Denial
 describes whether the D.C.                                             Recommendations
 headquarters staff supports                                      13%
 your purchase denial                                                                          5) always
 recommendations.                    Number   Percentage     8%                    37%         4)
 5) always                               31        36.9%                                       3) half the time
                                                            13%
 4)                                      24        28.6%                                       2)
                                                                        29%
 3) half the time                        11        13.1%                                       1) never

 2)                                       7         8.3%
 1) never                                11        13.1%
                             Total       84      100.0%

Only 84 loan officer respondents answered this question. Of those who did, 37% (N=31)
said that D.C. headquarters staff support their denial recommendations. A noticeable
21% (N=18) reported that the ir recommendations are supported less than half the time.




                                                 32
Significantly, 61 respondents (42% of the total respondents) chose not to reply to this
question. Although most did not explain their reasons for not answering, many reported
they have not recommended denials or sent any to headquarters. Some noted they get the
lender to release SBA liability, “We always resolve before it goes out of the office.”
Others commented on a lengthy response time from headquarters: “If other types of
requests are a gauge, then I would expect HQ to drag its feet;” “HQ has a denial request
we submitted a year ago, and still no decision has been made.” Some respondents
appeared frustrated with this time lag.


Q. 21
                                                                                      Different Review Procedures for
 Are there situations in your
                                                                                              Different Lenders
 office that warrant di fferent
 review procedures for
 different lenders?                 Number     Percentage                                                           29%
 yes                                    40        28.78%                                                                       yes
                                                                                                                               no
 no                                     99        71.22%                                 71%
                            Total      139       100.00%



Most respondents who answered this question (N=99, 71%) reported that they use the
same review procedures for all lenders. However, 29% (N=40) reported that certain
situations do lead to various review procedures.

One respondent noted that the office trains the lenders who need it. Another pointed out
that some programs, such as PLP loans, have very little information in the file about the
borrower.


Q. 22
 Do these situations involve any                                   Reasons for Different Review
 of the following                                                         Procedures
 characteristics?                    Number
                                                                         other                                      33
 bank v. non-bank                         10
 size of lender                           16                 number of repairs                            25
 number of SBA loans                      21                number of defaults                            25
 number of defaults                       25           number of SBA loans                           21
 number of repairs                        25
                                                                 size of lender                16
 Other                                    33
                                                             bank v. non-bank            10

                                                                                  0     10      20             30         40




This question is a follow- up to the previous one about different review procedures.
Answers indicate that the most frequent situations leading to different review procedures
involve lenders who have had problems with repairs and defaults (25 each). However,
the number of SBA loans is a close second (21), with fewer reporting size of lender (16)
and bank or private lender (10).


                                                  33
The option “other” led to a number of comments. One loan officer noted that his office
deals with over 500 lenders and “we treat them all the same. The smaller lenders have
the most problems.” In a related event, another added that rural banks have more
difficulty. Out of state lenders received attention: they “follow what their local SBA
office will accept no matter if it is wrong or if it is different.” Another indicated “Poor
experience with lenders who have purchased loan portfolios from other participants.
They tend to be less cooperative and difficult to deal with.”

Several commented that they do reviews on a case by case basis. One respondent noted,
“The primary goal of SBA’s policy is to handle each liquidation (review procedure)
according to its unique circumstance and the SOP.” Others commented that their offices
were “more lenient on those lenders who submit large numbers of applications.” Another
stated, “Minor issues may be ignored in the interest of bank relations.”



                                          V. Training
These questions were asked in order to collect information regarding the various types of
training that is available to those in the field. Many respondents added comments
indicating a great desire for further training opportunities. Very few respondents have
had formal training; most reported informal training, such as in- house instruction, as the
major way they have learned to do purchase reviews.

V. Training
        The questions in this section give you an opportunity to tell us what training and
the type of training you have had that is specific to the guaranty review process. We also
want to know of any other courses you are aware of.

Q. 23
                                                                        Formal Training
 Have you had any formal
 training specific to the
 guaranty purchase process?       Number   Percentage                             19%
 Yes                                  27      18.75%
                                                                                              yes
 No                                  117      81.25%                                          no
                          Total      144     100.00%
                                                                  81%



Very few (N=27, 19%) of the respondents reported having had formal training; 81%
(N=117) reported they have had none. The following table lists basic information
provided by the respondents about the training courses that are available to them.




                                                34
                                   Formal Training Received
                                                              Number Reporting
                                Course Name
                                                                 Attendance
          Advanced Resolution of Problem Commercial Credit    12
          Intermediate Commercial Credit                      1
          Basic Resolution of Problem Commercial Credit       18
          Advanced Commercial Credit                          1
          Basic Commercial Credit Analysis                    2
          Basic Liquidation                                   1
          Level I Liquidation                                 2
          Liquidation (Advanced Problem Resolution)           1
          SBA Liquidation Training course                     1
          SBA loan liquidation NAGGL                          1
          Financial Analysis III                              1
          Guaranty Purchase                                   1
          Interoffice Training on Purchases                   2
          Lender Oversight                                    2
          SBA loan portfolio management NAGGL                 1


In the table above, based on responses to this question, Basic and Advanced Resolution
of Problem Commercial Credit were the most frequently named courses. Keeping in
mind that only 27 of the respondents reported they had received training, these numbers
emphasize that only a few have had training, and the majority of that small number have
only participated in one class.

A number of respondents noted that they would like to have training. Comments ranged
from indicating interest: “I wish courses were offered and made available,” and “it might
be very helpful to have a class;” to stronger pleas for training: “I beg for training,” “I
would love to attend a course,” and “This should be strongly considered.” Clearly, the
majority who have not had training see the need for it.

Q. 24
Question 24 asked respondents to describe what other guaranty purchase review training
they had received. Respondents contributed almost 130 responses. As would be
expected, the most frequent answer was on-the-job or in- house training. Others relied on
their many years of experie nce, college courses and other (government or private sector)
audit experience. Some relied on the expertise of their co-workers in formal weekly
meetings or review/comparison sessions with experienced personnel.

As in Question 23, numerous respondents indicated that they would like to have
additional training, “I wish courses were offered and made available.” Another added



                                              35
that training is almost non-existent and “each office processes them differently, so
lenders play off one office’s policy against the other. This makes us look
unprofessional.” Another cautioned that NAGGL (National Association of Government
Guaranteed Lenders, Inc.) sponsored training is inappropriate: “I believe it is a conflict
of interest.”

While several mentioned that in spite of years of experience they’d like to have training
opportunities, perhaps the most resonant was a comment from a loan officer with 30
years of experience: “I think it may be helpful to have it in the future.”



Q. 25
Other than those listed above in Table I, do you know of any formal training
specific to guaranty purchase review?

This question was asked in order to gather information about any other training or
courses that might be available. No additional courses were identified, other than a few
offered by a local community college or local SBA offices.




                                             36
                                   VI. Review Process
Questions in this section were asked to probe more deeply into the issue addressed in
Questions 21 and 22. That is, whether purchase requests involve different review
procedures, and if so what factors determine the dissimilar action. Depending on the type
of loan, from 37% - 44% reported they consider all items. Respondents who did not
consider all items, consistently omit creditworthiness and repayment ability from their
reviews.

VI. Review Process
   The questions in this section will tell us more about the review process that is used in
your office.

Q. 26, Q. 27, Q. 28
To clarify the reporting in this section, please note that in Questions 26-28, loan officer
respondents were asked to check which of the following factors (listed below) they do
NOT consider when conducting reviews for particular types of loans.

                          Factors NOT Considered in Purchase Reviews:
                *repayment ability                     *creditworthiness
                *equity injection                      *conflict of interest
                *use of proceeds                       *eligibility
                *collateral missing                    *IRS verification
                *collateral not controlled             *collateral insufficient
                *adverse conditions between approval   *standby agreement
                & disbursement
                *adverse conditions after disbursement *other



All Items ARE Considered During Purchase Reviews

Some respondents to Questions 26, 27, and 28 indicated that they considered all of the
listed items. The following chart indicates the number of loan officers who reported that
they consider all items:

                     Number of Respondents who Consider ALL Items
                                                                 Percent of Total
                                                  Number     Respondents (N=145)

                Q. 26 PLP and LowDoc                    64                        44%

                Q. 27 CLP                               52                        36%

                Q. 28 Regular                           54                        37%

Similar to the Director’s responses, the loan officers noted that PLP and LowDoc loans
get the closest look when their guaranty requests are undergoing review. CLP and
regular loan purchase requests receive consideration of all the items more than 1/3 of the
time; 36% (N=52) for CLP and 37% (N=54).




                                                37
Q. 26
 Please indicate by marking which,
                                                          Items not Considered for PLP and
 if any, of the following are not
                                                                  LowDoc Reviews
 considered for PLP and LowDoc
 reviews:                            Number

                                                                                                                              1

 creditworthiness                        64




                                                                                                                  ds
                                                                                                                ee
                                                                                                             roc
                                                                                                           fp
                                                                                                                              2




                                                                                                         eo
                                                                                                       us


                                                                                                     t
                                                                                                   en
 repayment ability                       62




                                                                                                 em
                                                                                               re
                                                                                             ag
                                                                                                                              2




                                                                                          by
                                                                                        nd
                                                                                     sta




                                                                                   on
                                                                                 cti
 collateral insufficient                 50




                                                                              nje
                                                                             yi
                                                                          uit
                                                                                                                              3




                                                                        eq

                                                                                                 d
                                                                                               le
 eligibility                             33




                                                                                             ro
                                                                                           nt
                                                                                         co
                                                                                                                                  9




                                                                                      ot
                                                                                    ln
                                                                                  ra



                                                                                 st
                                                                                te



                                                                              re
                                                                              la



                                                                            te
                                                                           co



                                                                        f in
 other                                   17




                                                                      to
                                                                                                                                  9




                                                                   lic
                                                                 nf
                                                               co
                                                                                                                  ...
                                                                                                                n
 IRS verification                        15




                                                                                                              ee
                                                                                                                                      13




                                                                                                            tw
                                                                                                          be
                                                                                                       ns
                                                                                                   itio
 adverse conditions after final
                                                                                             nd



                                                                                             al...
                                                                                           co



                                                                                          fn
                                                                                           i
                                                        rse
 disbursement                            13

                                                                                       er
                                                                                                                                      15


                                                                                    aft
                                                      ve



                                                                                 ns
                                                    ad



 adverse conditions between                                                  itio




                                                                                n
                                                                           tio
                                                                          nd




                                                                         ca
 approval and final disbursement          9
                                                                      co




                                                                     rifi
                                                         rse




                                                                   ve
                                                                                                                                      17
                                                       ve




                                                                 S
                                                               IR
                                                     ad




                                                            er
                                                         oth
 conflict of interest                     9
                                                                                                                                           33
                                                                                                             ility
                                                                                                           ib
                                                                                                         ig
                                                                                                       el




 collateral not controlled                3                                                                                                     50
                                                                                                                     nt
                                                                                                                 icie
                                                                                                              uff




 equity injection                         2
                                                                                                           ins




                                                                                                                                                     62
                                                                                                        al
                                                                                                     ter
                                                                                                   la



                                                                                                 ity
                                                                                                co




                                                                                               bil
                                                                                             ta
                                                                                           en
                                                                                          m




 standby agreement                                                                                                                                   64
                                          2
                                                                                       pay
                                                                                     re


                                                                                  ss
                                                                                ne
                                                                              thi




                                                                                                                          0           20   40   60        80
                                                                            or
                                                                           w
                                                                        dit




 use of proceeds                          1
                                                                     cre




Consistent with the Directors’ answers, loan officers reported that creditworthiness
(N=64) and repayment ability (N=62) are most frequently not considered during purchase
reviews for PLP and LowDoc loans.




                                              38
T he following comments referred to Questions 26, 27, and 28. Several respondents
noted that at the point of review, SBA cannot question lender decisions or underwriting
on PLP loans: “Our review has nothing to do with lender approval of loan.” Another
noted that early default or a flagged loan may be an exception. Collateral value can also
be a cause for consideration. Also included is the reminder that non-PLP loans have
already been reviewed by SBA, “and the purchase process is not a tool designed to revisit
or audit SBA decisions.”

Others added that in most cases, LowDoc loans have already undergone review, but in
some instances, there is a discrepancy between information originally submitted and that
submitted for purchase. In these situations “the discrepancy may become a purchase
issue.” Not all are happy with the status quo: “If it were (sic) up to me, and it is not, I
would not grant PLP lenders total authority on these issues. Abuse exists.”

As reported earlier, some respondents do consider all the listed factors. One insisted that
all reviews are treated the same. Another asked, “Why would any of these not be
considered?”




                                             39
Q. 27
 Please indicate by marking which,
 if any, of the following are not                             Items not Considered for CLP Loan
 considered for CLP reviews:         Number                                Reviews


 Creditworthiness                         75
                                                                                                                                                          1




                                                                                                                                                 on
                                                                                                                                              cti
 repayment ability                        75                                                                                                              2




                                                                                                                                           nje
                                                                                                                                         yi
                                                                                                                                      uit
                                                                                                                                    eq


                                                                                                                                    s
                                                                                                                                  ed
                                                                                                                                                          2




                                                                                                                                ce
 collateral insufficient                  59




                                                                                                                              ro
                                                                                                                            fp
                                                                                                                          eo
                                                                                                                       us

                                                                                                                      ent
                                                                                                                                                          3




                                                                                                                     m
                                                                                                                  ree
 Eligibility                              49




                                                                                                                ag
                                                                                                             by

                                                                                                           ed
                                                                                                           nd
                                                                                                                                                              10




                                                                                                       sta


                                                                                                        ol
                                                                                                    ontr
                                                                                                  tc
 IRS verification                         17




                                                                                                no
                                                                                                                                                              12




                                                                                             al
                                                                                         ter


                                                                                           .
                                                                                        u..
                                                                                       la
 adverse conditions between




                                                                                      b
                                                                                    co

                                                                                   dis
                                                                                al


                                                                                 t
 approval and final disbursement          14




                                                                               es
                                                                             fin
                                                                                                                                                              13




                                                                            er
                                                                          er


                                                                         int
                                                                      aft


                                                                      of

                                                                    er
                                                                  ns


                                                                  ict

                                                                oth
                                                              itio


                                                               nfl
                                                            co
 Other                                    13               nd                                                                                                  14
                                                         co
                                                        rse
                                                      ve
                                                    ad




                                                                                                                                                               17

                                                                                           ..
                                                                                        rov
 conflict of interest                     12
                                                                                      pp

                                                                                    on
                                                                                  na

                                                                                 ati
                                                                                ee


 adverse conditions after final                                                c                                                                                         49
                                                                           tw


                                                                           rifi
                                                                         be


                                                                         ve

 disbursement                             10
                                                                      ns


                                                                       S

                                                                   ility
                                                                   IR
                                                                 itio




                                                               gib
                                                              nd




                                                                                                                                                                              59
                                                            eli
                                                           co
                                                        rse
                                                      ve




 collateral not controlled                3
                                                    ad




                                                                                                                                  t
                                                                                                                                en




                                                                                                                                                                                   75
                                                                                                                             ici
                                                                                                                          uff
                                                                                                                       ins
                                                                                                                    al

                                                                                                                 ility
                                                                                                               ter




 standby agreement                        2
                                                                                                              ab




                                                                                                                                                                                   75
                                                                                                            lla

                                                                                                           nt
                                                                                                          co


                                                                                                         e
                                                                                                       ym
                                                                                                    pa


                                                                                                    ss
                                                                                                  re




                                                                                                                                                      0        20   40    60       80
                                                                                                ine




 use of proceeds                          2
                                                                                             rth
                                                                                           wo
                                                                                        dit
                                                                                     cre




 equity injection                         1


As in Question 26, above, creditworthiness (N=75) and repayment ability (N=75) were
most frequently named as not considered for CLP purchase request reviews.

Many respondents who commented on this question remarked that SBA has already
approved the credit decisions. Comments such as: “I look at these areas only if
subsequent events after loan approval indicate SBA was possibly misinformed,” or
“Items should have been considered by finance division at inception” are indicative.
Again, others pointed out that when documentation presented by the bank contradicts the
original information, “the discrepancy may become a purchase issue.”


                                               40
Q. 28
 Please indicate by marking which,
 if any, of the following are not                              Items not Considered for Regular
 considered for regular loan                                                Loans
 reviews:                            Number

                                                                                                                   1
 creditworthiness                        75
                                                                                                              ing           1
                                                                                                      m   iss
                                                                                                    l
                                                                                              era ction
                                                                                        lat                                 2
 repayment ability                       75                                         co y inje
                                                                                               u it                s
                                                                                          eq ceed                           2
                                                                                                   p  ro
                                                                                                 f
                                                                                           eo                   nt           3
 collateral insufficient                 59                                           us                e  me
                                                                                                 g  r e
                                                                                            ya
                                                                                     n  db roled                               10
                                                                                 sta                n t               e r
 eligibility                             52                                                    co               oth
                                                                                           ot                                  10
                                                                                  r a ln
                                                                                te
                                                                            la
                                                                          co                                                    13
                                                                                                        .
 IRS verification                        16                                                      v a..
                                                                                           pro                                  13
                                                                                  n   ap
                                                                              e  e              r. ..              t
                                                                          etw sbu                            res                 16
 conflict of interest                    13                          n s b al di f inte
                                                                 itio         fin                o                 n
                                                              nd           er               lict               tio
                                                          e co s aft conf                               ifica                              52
 adverse conditions after final                         rs           n                              e  r
                                                      ve       dit
                                                                  io                          Sv                   lity
                                                    ad      on                           IR                    ibi                              59
 disbursement                            13                c                                            e  lig
                                                       rse
                                                     ve                                                          t
 adverse conditions between                        ad                                                       ien                                      75
                                                                                                     u ffic
 approval and final disbursement         10                                                    ins                ty
                                                                                          ral                 bili                                   75
                                                                                  l a te
                                                                                                       n  ta
                                                                              co                me ss
                                                                                           ay                e
                                                                                     rep rthin                            0      20   40   60        80
 other                                   10                                                     w   o
                                                                                            d it
                                                                                      cre

 collateral not controlled                3


 standby agreement                        2


 use of proceeds                          2


 equity injection                         1


 collateral missing                       1

Again, the most frequently mentioned issues not considered for regular loan reviews are
creditworthiness (N=75) and repayment ability (N=75).

As indicated in the remarks following Table 26, most comments refer to the fact that
these loans have already been approved by the SBA at some level. Again, the exceptions
include whether “subsequent events after loan approval indicate SBA was possibly


                                              41
misinformed,” or “occasions whereby the documentation presented by the bank
contradicts the information originally submitted and reviewed by SBA officials.”

Again, not all loan officers agree with this policy: “Management supported by legal will
not battle issues if bank will not agree with the repair. This leads to substantial reduction
in recommended repair amount. . .”



                                  VII. Risk Assessment
The following questions were asked to determine the level of repairs and denials that are
recommended. Results indicate that most do not recommend denials or repairs. Of the
few who were willing to answer the questions, most indicated that they are supported in
those decisions, locally and by headquarters.

VII. Risk Assessment
The questions in this section address whether you have ever made a recommendation to
deny or repair a guaranty purchase request and if so, your perceptions about how such a
recommendation might be received.

Q. 29
 Have you ever made                                                Recommendation to Deny
 a recommendation to
 deny a guarantee?      Number    Percentage
 yes                        69       48.25%
 no                         74       51.75%                                          48%        yes
                Total      143      100.00%                  52%                                no




Just over half (N=74, 52%) of the respondents reported that they have never made a
denial recommendation. This partially explains why so few respondents answered the
following Questions 30 – 32. However, 69 (48%) responded that they have made denial
recommendations, and they answered those questions as shown below.

Respondents who commented on this question report that they have obtained voluntary
guaranty releases from the lenders and so it has been unnecessary to recommend denials.




                                               42
Q. 30
 If yes to question 29, over
                                                                        Number of Denials Sent to DC
 the past 3 years, how many
 denials have you sent to
 D.C. Headquarters               Number   Percentage        0 denials                                     33

 20 denials                           1         1.5%
                                                             1 denial                      14
 10 denials                           1         1.5%
 4 denials                            1         1.5%        2 denials                     12
 3 denials                            3         4.6%
                                                            3 denials           3
 2 denials                           12        18.5%
 1 denial                            14        21.5%        4 denials       1
 0 denials                           33        50.8%
                                                           10 denials       1
                         Total       65       100.0%
                                                           20 denials       1

                                                                        0            10         20   30             40



Of the loan officers who reported sending denial recommendations to D.C., just over half
(N=33, 51%) have not sent a denial within the past 3 years. Most (N=26, 40%) of the
respondents who had submitted a denial within the past 3 years had sent in only 1 or 2.

One respondent noted that their office tries to avoid sending denial recommendations to
headquarters “because of the time frame.” Others echoed the comments to Question 29
in that they obtain voluntary releases and/or reduced guaranty percentages where
warranted “without objection by participant.”



Q. 31
 If yes to question 29, was                                  Recommendation to Deny Supported
 your recommendation to                                               by Director
 deny supported by your
 Director?                    Number   Percentage
                                                                                9%
 yes                              50      90.91%
                                                                                                               yes
 no                                5        9.09%                                                              no
                      Total       55     100.00%                                          91%



Of the 69 who checked that they had submitted denial recommendations, only 55
answered this question. The majority (N=50, 91%) reported that their recommendations
to D.C. are supported by their Director. Less than 10% (N=5) reported no support from
their Director.

While a few respondents noted that their first denial recommendations are pending,
others stated that they obtain voluntary releases. However, some comments indicate
uncertainty: “my immediate supervisor has discouraged me from making a denial
recommendation based on underwriting deficiencies . . . this position is not shared by
others in management here. Thus, I am caught in the middle and it is most



                                                43
uncomfortable, often resulting in lectures about not being a ‘team player’ and not
‘thinking outside the box.’” Almost 20% of those who had recommended denial chose
not to answer this question.



Q. 32
 If yes to question 29, was                                       Recommendation to Deny Supported
 your recommendation to                                                      by OFA
 deny supported by the
 Office of Financial
 Assistance?                     Number   Percentage                  37%
                                                                                                     yes
 Yes                                 24      63.16%                                                  no
                                                                                       63%
 No                                  14      36.84%
                         Total       38     100.00%

Of the 69 who reported in Question 29 that they had sent in a denial recommendation,
only 38 respondents answered this question. Of that 38, 24 (63%) indicated support from
OFA (Office of Financial Assistance); 14 (37%) reported their recommendations were
not supported by OFA.

This low response rate calls for caution in interpretation. Less than ½ of the eligible
respondents answered. Considering the low response rate to this question, this may not
be a ringing endorsement for support from headquarters. In any event, this reluctance to
answer, as well as the comments, indicates that at least to some extent, there is a sense in
the field that denial decisions will not be supported.

A number of comments point out that they are waiting on answers from headquarters: “It
has been in Washington for over a year with no response,” and “For a different amount
and took 23 months to resolve.” These and other comments may signal that some are
reluctant to send in denials. It appears that the solution for many of our respondents is to
get the bank to cancel the guaranty or accept repair at the local level.




                                                44
Q. 33
 How often do you recommend
                                                              Repair Recommendation Frequency
 a repair to a guaranty                                                    0%
                                                                      9%
 purchase request?               Number   Percentage                        4%
 5) always                            0         0.0%                                       5) always
                                                                                     20%
                                                                                           4)
 4)                                   6         4.3%
                                                                                           3) half the time
 3) half the time                    28        19.9%
                                                                                           2)
 2)                                  95        67.4%            67%
                                                                                           1) never
 1) never                            12         8.5%
                        Total       141       100.0%

A majority of loan officers (N=107, 76%) reported that they recommend repairs less than
half the time. Only 24% (N=34) reported recommending repairs half or more of the time.
This is of some concern, given that the Directors, in their survey, reported that repairs are
a more useful way of dealing with purchase issues.

One respondent observed that the incidence of recommending repairs and denials, as well
as releases of liability “is up dramatically as a result of the PLP program.”



Q. 34
 Was your recommendation
                                                                      Recommendation to Repair
 to repair supported by your
                                                                        Supported by Director
 Director?                       Number   Percentage
 Yes                                111      94.07%
                                                                                6%
 No                                   7        5.93%
                                                                                                              yes
                         Total      118     100.00%
                                                                                                              no
                                                                                     94%



Twenty seven respondents did not answer this question. Of those who did, a significant
majority (N=111, 94%) reported their repair recommendations are supported by their
Director. Only 7 (6%) reported their recommendations are not supported by their
director. This is consistent with, and somewhat stronger than, indications of Directors’
support of denial decisions.

A number of respondents indicated that the Directors do not get involved. Others added
caveats such as: “With bank agreement,” or “Legal takes it further if need be.”




                                               45
                                    VIII. Monitoring
SBA utilizes a Guaranty Repair Tracking System to indicate, or flag, loans with potential
problems. These questions were included to determine how extensively this system is
being utilized. Respondents indicated that most have reviewed flagged loans; they do
query for flags; and have not been influenced by the flags.

VIII. Monitoring
These questions address flagged loans. By flagging, we mean those loans which, as a
result of reviews, investigations, and audits, are identified in SBA information systems as
problematic. We want to learn how flagging impacts your purchase recommendations.

Q.35
                                                               Query of SBA Information Systems
 Do you query SBA
 information systems to see if
 a loan under review is                                        40%
                                                                                                       yes
 flagged as problematic?         Number   Percentage
                                                                                                       no
 Yes                                 84      60.43%                                    60%
 No                                  55      39.57%
                         Total      139     100.00%

A majority of the loan officer respondents (N=84, 60%) reported that they do query for
flagged loans. However, a significant minority, 40% (N=55), stated that they do not.

Some respondents reported that they flag loans if a problem exists; one said, “Not aware
of any such system.” Another stressed that “Flags should show in LLTS system as well
as DCLS since DCLS is in very limited use. Almost all guaranty purchases happen after
L&D transfer.” Several indicated that they place flags in the system. According to
Procedural Notice 5000-700, “Loan problems may be discovered any time during the life
of a loan . . .” – answers to this question indicate that a significant minority may not be
aware of, or properly utilize, this system.



Q. 36.                                                               Review Flagged Loans
 Have you ever reviewed
 a loan that was flagged?     Number   Percentage
 yes                              71      52.99%
                                                             47%                                  yes
 no                               63      47.01%                                     53%          no
                      Total      134     100.00%




Just over half (N=71, 53%) of the loan officers reported that they have reviewed flagged
loans; 47% (N=63) reported that they have not done so. Again, a significant minority of
respondents seem unaware of how to fully utilize this system. Comments such as “have
never seen one,” or “we do not flag loans in SBA information systems” point out the



                                                46
need for further informing or instructing the field staff about fully utilizing the Guaranty
Repair Tracking System.



Q. 37.
 Have you ever                                                        Recommend Flagged Loans for
 recommended purchasing                                                       Purchase
 a loan that was flagged for
 potential purchase issues?     Number   Percentage
 yes                                58      43.94%
                                                                                           44%                 yes
 No                                 74      56.06%
                                                                       56%                                     no
                       Total       132     100.00%


A majority of the respondents (N=74, 56%) reported that they have not recommended
purchasing a flagged loan; 44% (N=58) reported they have. One respondent commented
they usually recommend repairs, or the lender will voluntarily terminate the guaranty.



Q. 38.
 If yes to Question 37, for                                             Action for Flagged Loans
 the most recent flagged
 loan you reviewed, what
 was the action taken?          Number   Percentage                          0%
                                                                                     30%           a) approval
 a) approval                        17        30.4%                                                b) withdrawal
 b) withdrawal                       0         0.0%                                                c) repair
                                                                                       0%
 c) repair                          39        69.6%             70%                                d) denial
 d) denial                           0         0.0%
                        Total       56       100.0%

Only 56 respondents answered this question. Of that small number, most (N=39, 70%)
had recommended repairs for recently reviewed flagged loans. Seventeen (30%) had
approved the request. One commented that it would depend on who flagged the loan;
others reported the case was pending.




                                                47
Q. 39
                                                                Recommendation Influenced by Flag
 If yes to Question 37, was
 the recommendation
 influenced by the flag?        Number   Percentage
 Yes                                27        48.2%                                     48%         yes
 No                                 29        51.8%              52%                                no
                        Total       56       100.0%



According to the 56 respondents to this question, flagging influences about half the
recommendations. Just less than half (N=27, 48%) reported that the flag did influence
their recommendation; just over half (N=29, 52%) stated that the flag did not influence
their recommendation.

Again, a respondent noted that it would depend on who had flagged the loan; others had
recommended repairs, but not because of the flag.



Q. 40
Respondents who answered yes to Question 37 (which asked about flagged loans) were
asked to explain how the flag influences their recommendations. A number of
respondents indicated that loans result in a closer review: “by flag account, we know to
ask for additional information and review that with the total purchase package,” or “flags
indicate close scrutiny is required.” Others used the qualification that “if the flag was put
on by a district office employee, it would have a great deal of influence; if it was put on
by someone in response to a PLP audit, very little influence…”

While most consider flagging to be useful, the system is not a simple solution: “some
flags (i.e., failure to take additional collateral) are judgment calls and not easy to
substantiate as clear cut negligence;” “the flag, while bringing attention to a specific loan,
brings more attention to the practices of the lender and more awareness of all their loans.”

While others remarked that flags have a high influence, one respondent noted that flags
do not influence the recommendation; rather “I just use them to ident ify a potential
problem and then make a decision based upon the facts.” Again, cause for concern is
raised when considering such comments as: “What is ‘flagged for potential repair
issues;’” and “Who does the ‘flagging?’”




                                                48
Q. 41.
 If yes to Question 37,                                                  Obtained Flag Report
 concerning flagged loans,
 did you obtain a copy of the
 report that led to the flag?      Number   Percentage             33%
 yes                                   31        67.4%                                                yes

 No                                    15        32.6%                                                no
                                                                                          67%
                           Total       46       100.0%




Only 46 respondents replied to this question. Just over two thirds (N=31, 67%) answered
that they did obtain a copy of the report that led to the flag; the remainder (N=15, 33%)
did not.

Very few comments were made, but, yet again, there is cause for concern about
implementing the flagging system: “I wasn’t aware a report was available. Why isn’t
this report put in file or sent to district office servicing the loan?”



Q. 42.
 If yes to Question 37, did you                                          Report Helpful
 find the report helpful?          Number   Percentage
 Yes                                   29        80.6%            19%
 No                                     7        19.4%                                          yes
                          Total        36      100.0%                                           no

                                                                                  81%




Of the very small number (36) of loan officers who responded to this question; 81%
(N=29) did find the report helpful; the remaining 7 (19%) did not find the report helpful.

From the very small number who did respond, comments ranged across the spectrum.
While some asked for more clear directions in how to negotiate a repair, there was also a
suggestion to centralize and contract out the purchase activity. Others indicated the flags
are more or less helpful but that most of the time, “the problem would have surfaced
during the purchase review.” Additional loan officers noted that they are the ones who
do the flagging. One respondent used this context to call for centralizing SBA purchase
activity.




                                                 49
                                  IX. Communications
This set of questions was asked to determine whether, and how, decision making
information is shared among and between field offices. Most respondents believe such
sharing would be helpful, but are not sure it is being done at this time. Further, for those
who did report such information sharing goes on, they noted that informal interactions are
the major means of connection.

IX. Communications
    The questions in this section concern sharing of information among field offices. By
information, we mean standards for decision- making including facts about how and why
recommendations were made given a certain set of circumstances.

Q. 43.
 Do you believe that some sort of                                   Cooperation Among Field Offices
 coordination of guaranteed
 purchase review decisions among                                    22%
 all Field Offices would benefit your                                                 35%       great benefit
 decision making process?                Number   Percentage                                    benefit
 great benefit                               49        35.0%                                    no benefit
 Benefit                                     60        42.9%           43%

 No benefit                                  31        22.1%
                                 Total      140       100.0%

More than three fourths (N=109, 78%) of the total respondents believed that coordination
of information regarding purchase decisions would be beneficial. Just over 22% (N=31)
replied that there would be no benefit to such coordination.

Several respondents noted that lenders who deal with multiple offices stand to be the
immediate beneficiaries of this sort of shared information. Others, while pointing out the
need for a more standardized review process, recognized the difficulties inherent in trying
to reorganize or have the decision making standards be more consistent. One put it very
succinctly: “It seems that we operate in two organizations: one run/viewed by Central
Office, another at District level.” Another noted that it is difficult even within regions to
initiate this sort of communication sharing: “DOs are resentful and/or rebellious to
change . . . HQ comes to suspect DOs are taking on policy making . . . if it were HQ
heading a nation-wide overhaul, then we Field Offices would start screaming about
having no say-so in the matter . . . Kind of stuck with the ‘can’t please all the people’
adage.”




                                                  50
Q. 44
 Please rank whether you believe                                                                                                                                   extremely
                                                                                                                              21% Sharing        of Information
                                                                                                                                                                   confident
 that information is currently
                                       Number   Percentage                                                                                                         confident
 shared among the various offices.
                                                                                                                                            4%    7%
 extremely confident                        5         3.6%                                                                                                         not sure
 Confident                                 10         7.1%
 not sure                                  62        44.3%                                                                                                         unconfident
                                                                                                                       24%                              44%
 Unconfident                               34        24.3%
                                                                                                                                                                   extremely
 extremely unconfident                     29        20.7%                                                                                                         unconfident
                               Total      140       100.0%

While the majority of respondents indicated in Question 43 that they believe shared
information would be beneficial, only a small minority reported confidence that
information is currently shared. Only 15 respondents (11%) said they are confident or
extremely confident that offices share information. A large majority (N=124, 89%)
reported they are not sure, unconfident, or extremely unconfident that information is
currently shared among offices.



Q. 45
 If you believe information is
                                                                                                                Ways Information Is Shared
 currently shared, how in your
 experience has this generally
 been done?                       Number                                                                                                               39
 Other                                10
 SOP revisions                        11
                                                                                                          cts
                                                                                                       nta




                                                                                                                                       21
                                                                                                     co




 meetings/training                    17
                                                                                                  al
                                                                                               orm




 Notices issued                       21
                                                                                            inf


                                                                                             d
                                                                                          ue
                                                                                       iss




 Informal contacts                    39                                                                                          17
                                                                                     s
                                                                                 tice
                                                                               No


                                                                             g
                                                                         inin
                                                                      tra




                                                                                                                             11
                                                                     /
                                                                   gs
                                                                tin
                                                              ee
                                                             m


                                                            ns
                                                        isio
                                                     rev




                                                                                                                         10
                                                                 P
                                                               SO


                                                                                                 er
                                                                                              oth




                                                                                                                  0     10        20         30        40     50


The few respondents who believe information is shared reported that informal contacts
are the most frequent means of communication. “Formal notices issued” was the second
most frequent method named.

Respondents contributed very direct remarks: “Field people have not had a meeting in
over 5 years. If you want consistency in this area, call a meeting and tell us what you
want.” Others noted that an opinion digest or dial in on the intranet website would be
very helpful. Others recognized the lack of and need for consistency: “I am aware of an
office that performs cursory reviews and seldom if ever has a guaranty repair or denial. I
am aware of other offices that attempt to repair or deny guaranties when actual harm
cannot be shown.”


                                                51
                                    General Comments

Q. 46
Please use the rest of this page, and/or additional paper, to make any further
suggestions or comments that have occurred to you as you have completed this
questionnaire.

The overall high response rate indicates a great deal of interest on the part of loan officers
in the field, and many took advantage of this opportunity to contribute their ideas,
observations, and suggestions. One respondent sent in 8 pages of typed, single spaced
remarks, and like several others, profusely expressed gratitude for a chance to contribute:
“. . . I very much appreciate OIG asking for Field Office input. I’ve deleted three
quarters of my comments. . .” Although this was the lengthiest list of comments, other
respondents also contributed some quite insightful remarks, at times using quite graphic
language. Clearly, this survey struck a chord with many.

The many comments received covered a wide spectrum of aspects of the SBA. For the
sake of consideration, they are broadly categorized below as relating to SBA internal
issues; external factors; and policy suggestions. A summary of these ideas follows.

SBA Internal Issues
The SBA internal issues mentioned by respondents include training for SBA loan officers
and lenders as well as the need for better reporting.

Although an entire section of the survey was devoted to training, a number of loan
officers further remarked on the need for, as well as the importance and inadequacy of,
current training opportunities available to them. Respondents stated that there were too
few opportunities; that most of what is available is inadequate; and that everyone in the
office should be trained. Others added that training should be coordinated; reviewers
should specialize according to the type of loan; and the employees should be certified
after receiving instruction. One noted, “If the D.C. staff leads training, it should be done
by the OIG, not headquarters staff.”

Several also commented that lenders need ongoing, adequate training. While some noted
the existence of NAGGL training opportunities, there were remarks both favorable:
“From what I have heard NAGGL provides good training,” as well as unfavorable: “It is
questionable if they adequately address repairs.” One stated that it was inappropriate for
NAGGL to provide training to SBA employees. Most included arguments that support
their requests: “I believe that many problems and negative events that may occur in a
region or in the Agency are a consequence of the lack of formal training and guidance.”
One respondent argued that “we all need more and more training – there is no substitute
for the professional judgment of trained, experienced people.”

Another suggestion was a request for better reporting. Several noticed the inadequacy of
databases that are currently utilized. One respondent offered a suggestion for “An
Access-based purchase system for reporting detailed review results. . . If such a system is



                                              52
implemented, it sho uld NOT be based on the existing outdated SBA accounting system
(far too difficult to use, no query capabilities) and would be a much better way of
tracking repairs, delayed purchase submission, and documentation issues for individual
lenders.”

External Issues
Lenders and NAGGL were additional objects of concern. Respondents pointed out that
the interests of lenders and NAGGL would likely supercede the SBA mission: “It’s
laughable to think they would place the interest of this Agency and, more importantly, the
interest of the small business concern and/or borrower over and above their own
interest/profit margins.”

Others pointed out the problematic lenders. These include new lenders, those that are
small or located in rural settings, non-banks, and out of state PLPs. The lenders’ own
internal issues, including rapid turnover, according to respondents, account for many of
the difficulties SBA loan officers face in conducting timely, appropriate reviews. One
suggested revamping the PLP review process because it is too compliance oriented and
gives the impression “that SBA is more concerned with form than substance. Consider
putting more ‘teeth’ in our reviews.”

Policy Issues
A number of respondents’ suggestions, comments and observations relate to SBA
policies. One area that received a great deal of attention is that of centralizing the
purchase process. There were comments supporting: “Why not centralize;” “It would
ensure consistency and uniformity” and opposing the idea: “It will become a rubber
stamp;” “Will cause SBA to lose a point of check and balance.” Quite interesting were
the suggestions that centralization take place on a state or regional basis: “Try it as a
pilot, using existing offices.” The major argument offered for centralizing at a regional
or state level is to accommodate the widely different state laws.

Several respondents suggested that the SBA alter its policy to require all lenders to
purchase from the secondary market before requesting the guaranty: “All participants
should be required to purchase the guaranty from secondary market. When SBA
processes pre-purchase requests, we receive documents timely, repairs (if any) are much
easier to negotiate, and denial requests receive more support from OFA. ” As it is now,
others indicated, lenders are reluctant, and even refuse, to make these purchases.

Another respondent noted that at a different agency which involved purchasing home
loans, the agency had stronger controls over the lenders and the loans were for smaller
amounts which led to better, more complete requests from the lenders: “a system in place
that allowed us to be, for the lack of a better word, harder on the lenders to insure that
they were following the required regulations. It would not take much to get a problem
lender to start doing things correctly, and it did not turn any lenders away from working
with the program. However, it did make our jobs a lot easier and more efficient, and it
was actually beneficial to the lenders in the end, especially when it came to the
purchases. The lenders knew what was expected of them, period.”



                                            53
Respondents contributed a number of comments and observations about the PLP
program. Some wanted a complete revamping; others stated that they had too much
authority. One captured the complexity and nuance of the issues surrounding the PLP
program: “It is unreasonable to give them unilateral authority to commit SBA to a
guaranty and then deny the guaranty if we don't like their underwriting. Our review
standard is the authorization. If the closing conformed to the authorization, they should
expect to have a guaranty. If we don't like the way a PLP lender writes an authorization,
we should withdraw their ability to do it. Once they have produced the authorization, we
are committed, and we open a vast can of worms if we start reviewing their underwriting
in a guaranty purchase review. ” Another added that because PLP lenders are given
unilateral authority to make loans, the guaranty percentage should be reduced.

Several noted the need for more standardization and uniformity in the purchase process.
There are currently few guidelines regarding how to assess repairs; or document adequate
proof of equity injection; too many different checklists which leads to lender confusion;
and Loan Authorizations need to be streamlined: “make the rules consistent.” While “a
cookie-cutter approach won’t work” and “nitpicking should be avoided,” the rules need
to be clear and concise, according to loan officer respondents. “The ‘may and should’
language must be changed to ‘must,’ leaving no room for subjective assessment of a
repair.”

Finally, the SOPs received a great deal of comment. Many respondents find them
inadequate and unclear: “The SOP is not clear as to how in depth the review should be”
represents many comments and pleas for improved SOPs. While one respondent noted
that “the reality is that you couldn't write an SOP large enough to cover every possible
controversy that can come up on a guaranty purchase,” others insisted that “the SOP for
purchases should be completely rewritten to make it clear and concise.”

Respondents found the SOPs to be subjective: “The SOP is not definite on when to assess
a repair. Guidelines are there, but assessing the damage and a correspond ing repair is
subjective,” and uncertain: “The SOP 50 51 2 (a) (actually all of them but we’ll start with
this one) allows DOs way too much room to reach very different points of view. This
adds to the frustration, for both SBA and Lenders, that Field Offices have so many
different practices.” This subjectivity and uncertainty lead to inconsistency: “Under
SOP 50-50-4 Ch 10, page 1, almost every loan could be denied, but obviously we don't
want that. We are not consistent in this office in our approach to repairs.” The result of
this, based on respondents’ comments, is frustration on the part of those in the field doing
purchase reviews. They clearly believed they could do a better job with more precise
SOPs.




                                             54
Appendix to Loan Officers’ Survey Responses




                    55
                                 Loan Officers’ Cover Letter
April 26, 2002

Title FName LName
Job Title
Company
Address
City state zip

Dear Mr/Ms:

You have been selected to participate in a survey. As you may be aware, the Office of Inspector
General is performing an audit of SBA’s guaranty purchase process. We have created a
questionnaire to enable those of you in the field to directly participate in our review process.
The purpose of this questionnaire is to gain information in order to improve the guarantee
purchase process. As a person directly involved in the purchase process, your contribution is
valuable.

Our pilot showed that it takes approximately 30 - 45 minutes to complete the form. Although it is
not mandatory for you to complete the survey, our results will be much better with full
participation.

We also want to assure you that we are making every effort to ensure your answers remain
anonymous. You will notice a hand written number in the top left-hand corner of the return
envelope. We will use this number only to track who has and has not responded, so that we can
make follow up reminders. Once the response period is completed, the numbers and identifying
information will not be retained.

If you have any questions or comments about the survey or the guarantee purchase process,
please call Laura Makray (202.205.3178). Detailed directions concerning how to indicate your
responses are on the first page of the form. Also, each major section begins with information and
instructions to help you better answer the questions.

Please send us your reply by May 17, 2002. We greatly appreciate your efforts in replying to the
survey, and thank you in advance for your cooperation.

Sincerely,


Robert G. Seabrooks
Assistant Inspector General for Auditing

Encl. 8 page survey




                                               56
                                Loan Officers’ Guaranty Purchase Survey
               This survey contains questions about the guaranty purchase process. Please answer each
       question carefully. Most of the questions are multiple choice or yes/no. For each of these, please
       checkmark the line corresponding with the most accurate answer.
               For some questions, you are asked to describe or discuss your answer. If we have not
       provided enough space for you, please use a blank sheet of paper, and be sure to indicate which
       question you are responding to.

I. Time/Workload                                            5) Indicate the length of time between when you
    In questions 1-7, we ask about your workload, as        first receive an assignment to review a purchase
well as that of your office.                                request and the time it is completed.

1) On average, how many purchase reviews do you                     _____ a) less than a day
complete per week?                                                  _____ b)1 day to less than 1 week
        _____ a) 0 - 3                                              _____ c) 1 week to less than 1 month
        _____ b) 4 - 10                                             _____ d) 1 month to less than 3 months
        _____ c) 11 - 15                                            _____ e) 3 months or more than (write in
        _____ d) 16 or more                                                the estimated length of time:
                                                                           ____________________________)
2) On average, how many purchase requests does                      _____ f) unsure
your office receive per week?
        _____ a) 0 - 3                                      6) How frequently do you have to ask the lender for
        _____ b) 4 - 10                                     additional information? (Please indicate from 1 to 5
        _____ c) 11 - 15                                    below, 5 is always, 1 is never)
        _____ d) 16 - 20                                            _____ 5) always
        _____ e) 21 or more                                         _____ 4)
                                                                    _____ 3) half the time
3) Are you given adequate time to do a thorough                     _____ 2)
review of each guaranty request that is assigned to                 _____ 1) never
you? (Please indicate from 1 to 5 below, 5 is
always, 1 is never)                                         7) Are all loans, (regular, PLP, CLP) reviewed
        _____ 5) always                                     using the same criteria?
        _____ 4)                                                    _____ a) yes
        _____ 3) half the time                                      _____ b) no (if no, please explain below)
        _____ 2)                                            _________________________________________
        _____ 1) never                                      _________________________________________

4) On average, what is the length of time from              _________________________________________
when you first receive an assignment to revie w a           _________________________________________
purchase request and the time you begin your work
on that case?                                               _________________________________________
         _____ a) less than a day                           _________________________________________
         _____ b) 1 day to less than 1 week
         _____ c) 1 week to less than 1 month               _________________________________________
         _____ d) 1 month to less than 3 months             _________________________________________
         _____ e) 3 months or more (write in the
           estimated length of time: ____________)          _________________________________________
         _____ f) unsure




                                                       57
II. Individual                                                   12 a) Are there particular areas of the SOP relevant
      In questions 8-11, we ask for information that will        to guaranty purchase that you believe should be
tell us about your experience in performing guaranty             strengthened?
purchase reviews.                                                        _____ a) yes (if yes, please identify in the
                                                                                  space provided below)
8) In the last 12 months were you the primary                            _____ b) no
reviewer on a guaranty purchase request?
         _____ a) yes                                            Please identify here. Tell us the page number and
         _____ b) no                                             how it could be strengthened, or what the
                                                                 weaknesses are:
9) How long have you been doing guaranty                         _________________________________________
purchase reviews?
       _____ a) less than 1 year                                 _________________________________________
       _____ b) 1 year to 3 years                                _________________________________________
       _____ c) more than 3 years to 5 years
       _____ d) 5 years or more                                  _________________________________________
                                                                 _________________________________________
10) On an average day, how do you spend your
time?                                                            _________________________________________
       ___ a) 100% on guaranty purchase reviews                  _________________________________________
       ___ b) 75% on guaranty purchase reviews
       ___ c) 50% on guaranty purchase reviews                   _________________________________________
       ___ d) 25% on guaranty purchase                           _________________________________________
               reviews
       ___ e) less than 25%                                      _________________________________________

11) I am given enough time to thoroughly review                  13) Do you have any additional internal or informal
all guaranty requests that are assigned to me.                   documentation that provides guidance to you in
(Please indicate from 1 to 5 below, 5 is always, 1 is            your guaranty purchase process?
never)
         _____ 5) always                                             _____ a) yes (if yes, please describe below)
         _____ 4)                                                    _____ b) no
         _____ 3) half the time
         _____ 2)                                                Please describe (e.g., cuff notes passed on from
         _____ 1) never                                          other reviewers; your own checklist; training course
                                                                 materials). Be as specific as possible.
                                                                 _________________________________________
III. Documentation                                               _________________________________________
      Questions 12 – 17 are designed to tell us whether
you find the documentation which guides the guaranty             _________________________________________
review process adequate. We also want to know if you
have other documentation to guide your review
                                                                 _________________________________________
recommendations.                                                 _________________________________________

12) Does SOP 50 50 4 provide enough information
for you to make confident determinations about                   14) When reviewing specific cases for purchase,
guarantee purchase recommendations? (Please                      would it be useful for the reviewer (recommending
indicate from 1 to 5 below, 5 is always, 1 is never)             official) to have the entire file from the lender?
         _____ 5) always                                                  _____ a) yes
         _____ 4)                                                         _____ b) no
         _____ 3) half the time
         _____ 2)
         _____ 1) never


                                                            58
15) If not the entire lender file, are there other        IV. Management
documents that would assist you in your purchase               Given all the changes that have occurred in recent
reviews?                                                  years, we are asking the questions in this section to
        _____ a) yes                                      address your perceptions regarding whether field and
        _____ b) no                                       headquarters management have supported your
                                                          recommendations to deny a purchase.
If yes, please list here:
                                                          18) Circle the selection that best describes whether
_________________________________________
                                                          your immediate supervisor supports your purchase
_________________________________________                 denial recommendations. (Please indicate from 1 to
                                                          5 below, 5 is always, 1 is never)
_________________________________________
                                                                   _____ 5) always
_________________________________________                          _____ 4)
                                                                   _____ 3) half the time
_________________________________________
                                                                   _____ 2)
_________________________________________                          _____ 1) never
_________________________________________
                                                          19) Circle the selection that best describes whether
                                                          your office supports your purchase denial
16) What do you consider adequate evidence of use         recommendations. (Please indicate from 1 to 5
of proceeds?                                              below, 5 is always, 1 is never)
_________________________________________                         _____ 5) always
                                                                  _____ 4)
_________________________________________
                                                                  _____ 3) half the time
_________________________________________                         _____ 2)
                                                                  _____ 1) never
_________________________________________
_________________________________________                 20) Circle the selection that best describes whether
                                                          the D.C. headquarters staff supports your purchase
_________________________________________
                                                          denial recommendations. (Please indicate from 1 to
_________________________________________                 5 below, 5 is always, 1 is never)
                                                                   _____ 5) always
_________________________________________
                                                                   _____ 4)
_________________________________________                          _____ 3) half the time
                                                                   _____ 2)
                                                                   _____ 1) never
17) What do you consider adequate evidence of
equity injection?
                                                          21) Are there situations in your office that warrant
_________________________________________
                                                          different review procedures for different lenders?
_________________________________________                         _____ a) yes
                                                                  _____ b) no
_________________________________________
_________________________________________
_________________________________________
_________________________________________
_________________________________________
_________________________________________
_________________________________________




                                                     59
22) Do these situations involve any of the following
characteristics? (Check all that apply)                     V. Training
        _____ size of lender                                         The questions in this section give you an
        _____ bank v. non-bank lender                       opportunity to tell us what training and the type of
        _____ number of SBA loans processed                 training you have had that is specific to the guaranty
                by lender                                   review process. We also want to know of any other
        _____ number of defaults by lender                  courses you are aware of.
        _____ number of repairs by lender
                                                            23) Have you had any formal training specific to
        _____ other (please explain below)
                                                            the guaranty purchase process?
_________________________________________
                                                                     _____ a) yes (If yes, please list in Table I,
_________________________________________
                                                                              below
_________________________________________                            _____ b) no
_________________________________________
_________________________________________




Please list and describe each course you have taken that is specific to the guaranty purchase review process in
the following Table I. For each course listed, tell us the name of the course, what material was covered, and
rank whether you found it beneficial to your specific task of guaranty request action. We have provided space
for four courses, please list any additional information on a blank sheet of paper.

                                      Table I, Guaranty Courses taken
Name of Course                   Date (Month, Year)   Title                            Beneficial to
                                                      Describe material                Guaranty
                                                      covered                          Review Process
                                                                                       (Circle one)
A.                                                                                     a) very helpful
                                                                                       b) helpful
                                                                                       c) somewhat helpful
                                                                                       d) unhelpful
B.                                                                                     a) very helpful
                                                                                       b) helpful
                                                                                       c) somewhat helpful
                                                                                       d) unhelpful
C.                                                                                     a) very helpful
                                                                                       b) helpful
                                                                                       c) somewhat helpful
                                                                                       d) unhelpful
D.                                                                                     a) very helpful
                                                                                       b) helpful
                                                                                       c) somewhat helpful
                                                                                       d) unhelpful
E.                                                                                     a) very helpful
                                                                                       b) helpful
                                                                                       c) somewhat helpful
                                                                                       d) unhelpful



                                                       60
24) What other training, specific to the            25) Other than those listed above in Table I,
guaranty purchase review process, have you          do you know of any formal training specific
had? (In-house, on the job, etc.) Please            to guaranty purchase review?
describe.                                                   _____ a) yes (If yes, please list in
____________________________________                        Table II,
                                                                      below)
____________________________________                        _____ b) no
____________________________________
____________________________________




Please tell us the name of the course, the sponsor (ex. SBA, NAGGL, etc.) and location in Table
2, below. We have provided space for four courses; please list any additional information on a
blank sheet of paper

                            Table II, Guaranty Purchase Review
Name of Course                 Sponsor                       Location




Questionnaire continues on next page --




                                               61
VI. Review Process                                                 28) Please indicate by marking which, if any, of the
      The questions in this section will tell us more about        following are not considered for regular loan
the review process that is used in your office.                    reviews:
                                                                        ______Repayment ability
26) Please indicate by marking which, if any, of the                    ______Equity injection
following are not considered for PLP and LowDoc                         ______Use of Proceeds
reviews:                                                                ______Collateral missing
     ______Repayment ability                                            ______Collateral not controlled
     ______Equity injection                                             ______Adverse conditions between
     ______Use of Proceeds                                                     approval and final disbursement
     ______Collateral missing                                           ______Adverse conditions after
     ______Collateral not controlled                                           final disbursement
     ______Adverse conditions between                                   ______Creditworthiness
            approval and final disbursement                             ______Conflict of interest
     ______Adverse conditions after                                     ______Eligibility
            final disbursement                                          ______IRS verification
     ______Creditworthiness                                             ______Collateral Insufficient
     ______Conflict of interest                                         ______Standby Agreement
     ______Eligibility                                                  ______Other (please explain below)
     ______IRS verification                                                ___________________________________
     ______Collateral Insufficient                                         ___________________________________
     ______Standby Agreement                                               ___________________________________
     ______Other (please explain below)                                 ______ All of the above factors are considered
        ___________________________________                             when doing a regular review
        ___________________________________                        VII. Risk Assessment
        ___________________________________                              The questions in this section address whether you
     ______ All of the above factors are considered                have ever made a recommendation to deny or repair a
     when doing a PLP or LowDoc review                             guaranty purchase request and if so, your perceptions
                                                                   about how such a recommendation might be received.
27) Please indicate by marking which, if any, of the
following are not considered for CLP reviews:                      29) Have you ever made a recommendation to deny
     ______Repayment ability                                       a guarantee?
     ______Equity injection                                                _____ a) yes (If yes, answer 30-32 below)
     ______Use of Proceeds                                                 _____ b) no (If no, leave 30-32 blank)
     ______Collateral missing
     ______Collateral not controlled                               30) If yes to question 29, over the past 3 years, how
     ______Adverse conditions between                              many denials have you sent to D.C. Headquarters?
            approval and final disbursement                                (write here: ________________________)
     ______Adverse conditions after
            final disbursement
     ______Creditworthiness                                        31) If yes to question 29, was your recommendation
     ______Conflict of interest                                    to deny supported by your Director?
     ______Eligibility                                                     _____ a) yes
     ______IRS verification                                                _____ b) no
     ______Collateral Insufficient
     ______Standby Agreement
     ______Other (please explain below)                            32) If yes to question 29, was your recommendation
        ___________________________________                        to deny supported by the Office of Financial
        ___________________________________                        Assistance?
        ___________________________________                                _____ a) yes
     ______ All of the above factors are considered                        _____ b) no
     when doing a CLP review


                                                              62
33) How often do you recommend a repair to a                      40) If yes to question 37, what influence do flags
guaranty purchase request? (Please indicate from 1                regarding potential purchase issues generally have
to 5 below, 5 is always, 1 is never)                              on your recommendations to either deny or
         _____ 5) always                                          purchase a loan?
         _____ 4)
                                                                  _________________________________________
         _____ 3) half the time
         _____ 2)                                                 _________________________________________
         _____ 1) never
                                                                  _________________________________________
34) Was your recommendation to repair supported                   _________________________________________
by your Director?
                                                                  _________________________________________
         _____ a) yes
         _____ b) no                                              _________________________________________
                                                                  _________________________________________
VIII. Monitoring
                                                                  _________________________________________
       These questions address flagged loans. By
flagging, we mean those loans which, as a result of
reviews, investigations, and audits, are identified in SBA
information systems as problematic. We want to learn              41) If yes to question 37, concerning flagged loans,
how flagging impacts your purchase recommendations.               did you obtain a copy of the report that led to the
                                                                  flag?
35) Do you query SBA information systems to see                           _____ a) yes
if a loan under review is flagged as problematic?                         _____ b) no
         _____a) yes                                                      _____ c) not applicable
         _____ b) no
                                                                  42) If yes to question 37, did you find the report
36) Have you ever reviewed a loan that was                        helpful?
flagged?                                                                   _____ a) yes
        _____a) yes                                                        _____ b) no
        _____ b) no                                                        _____ c) not applic able
37) Have you ever recommended purchasing a loan                   Please add any further comments:
that was flagged for potential purchase issues?
                                                                  _________________________________________
        _____ a) yes (if yes, answer 38-42)
        _____ b) no (if no, leave 38-42 blank)                    _________________________________________
                                                                  _________________________________________
38) If yes to question 37, for the most recent
flagged loan you reviewed, what was the action                    _________________________________________
taken?
                                                                  _________________________________________
         _____ a) approval
         _____ b) withdrawal                                      _________________________________________
         _____ c) repair                                          _________________________________________
         _____ d) denial
                                                                  _________________________________________
39) If yes to question 37, was the recommendation
                                                                  _________________________________________
influenced by the flag?
         _____a) yes
         _____ b) no




                                                             63
IX. Communications                                           46) Please use the rest of this page, and/or
     The questions in this section concern sharing of        additional paper to make any further suggestions or
information among field offices. By information, we          comments that have occurred to you as you have
mean standards for decision-making including facts           completed this questionnaire.
about how and why recommendations were made given a
certain set of circumstances.                                Thank you for spending the time to fill out this
                                                             survey. Please put the completed questionnaire in
43) Do you believe that some sort of coordination            the enclosed return envelope and mail it back to us.
of guaranteed purchase review decisions among all
Field Offices would benefit your decision making
process?
        _____ a) great benefit
        _____ b) benefit
        _____ c) no benefit

44) Please rank whether you believe that
information is currently shared among the various
offices:
         _____ a) extremely confident
         _____ b) confident
         _____ c) not sure
         _____ d) unconfident
         _____ e) extremely unconfident

45) If you believe information is currently shared,
how in your experience has this generally been
done?
        _____ a) revisions of SOP
        _____ b) issuance of Notices or other
                 guidance
        _____ c) meetings/training
        _____ d) informal contacts among various
                  Districts’ staff
        _____ e) other (please describe)
_________________________________________
_________________________________________
_________________________________________
_________________________________________
_________________________________________
_________________________________________
_________________________________________
_________________________________________




                                                        64
